<html>
<title> - IMPLEMENTING MAP-21: PROGRESS REPORT FROM U.S. DEPARTMENT OF TRANSPORTATION MODAL ADMINISTRATORS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 IMPLEMENTING MAP-21: PROGRESS REPORT

                 FROM U.S. DEPARTMENT OF TRANSPORTATION

                          MODAL ADMINISTRATORS
=======================================================================

                                (113-6)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/

        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
79-896                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY

                                  (ii)



                  Subcommittee on Highways and Transit

                  THOMAS E. PETRI, Wisconsin, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
JOHN L. MICA, Florida                MICHAEL E. CAPUANO, Massachusetts
FRANK A. LoBIONDO, New Jersey        MICHAEL H. MICHAUD, Maine
GARY G. MILLER, California           GRACE F. NAPOLITANO, California
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
SHELLEY MOORE CAPITO, West Virginia  STEVE COHEN, Tennessee
DUNCAN HUNTER, California            ALBIO SIRES, New Jersey
ERIC A. ``RICK'' CRAWFORD, Arkansas  DONNA F. EDWARDS, Maryland
LOU BARLETTA, Pennsylvania           ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              JANICE HAHN, California
LARRY BUCSHON, Indiana               RICHARD M. NOLAN, Minnesota
BOB GIBBS, Ohio                      ANN KIRKPATRICK, Arizona
RICHARD L. HANNA, New York           DINA TITUS, Nevada
STEVE SOUTHERLAND, II, Florida       SEAN PATRICK MALONEY, New York
REID J. RIBBLE, Wisconsin, Vice      ELIZABETH H. ESTY, Connecticut
Chair                                LOIS FRANKEL, Florida
STEVE DAINES, Montana                CHERI BUSTOS, Illinois
TOM RICE, South Carolina             NICK J. RAHALL, II, West Virginia
MARKWAYNE MULLIN, Oklahoma             (Ex Officio)
ROGER WILLIAMS, Texas
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Victor M. Mendez, Administrator, Federal Highway 
  Administration.................................................     5
Hon. Peter M. Rogoff, Administrator, Federal Transit 
  Administration.................................................     5
Hon. Anne S. Ferro, Administrator, Federal Motor Carrier Safety 
  Administration.................................................     5
Hon. David L. Strickland, Administrator, National Highway Traffic 
  Safety Administration..........................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Thomas E. Petri, of Wisconsin...............................    50
Hon. Nick J. Rahall, II, of West Virginia........................    58

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Victor M. Mendez:

    Prepared statement...........................................    60
    Answers to questions from the following Representatives:

    Hon. Thomas E. Petri, of Wisconsin...........................    68
    Hon. John J. Duncan, Jr., of Tennessee.......................    70
    Hon. Gary G. Miller, of California...........................    71
    Hon. Lou Barletta, of Pennsylvania...........................    72
    Hon. Tom Rice, of South Carolina.............................    72
    Hon. Eddie Bernice Johnson, of Texas.........................    76
Hon. Peter M. Rogoff:

    Prepared statement...........................................    79
Hon. Anne S. Ferro:

    Prepared statement...........................................    85
    Answers to questions from the following Representatives:

    Hon. Thomas E. Petri, of Wisconsin...........................    90
    Hon. Andre Carson, of Indiana................................    91
    Hon. Jerrold Nadler, of New York.............................    93
    Hon. Markwayne Mullin, of Oklahoma...........................    94
Hon. David L. Strickland:

    Prepared statement...........................................    96
    Answers to questions from the following Representative:

    Hon. Jerrold Nadler, of New York.............................   100

                       SUBMISSIONS FOR THE RECORD

Hon. Peter M. Rogoff, Administrator, Federal Transit 
  Administration, list of FTA projects and funding levels........    25
Hon. Victor M. Mendez, Administrator, Federal Highway 
  Administration, 5 inserts for the record...........31, 36 (2), 38, 44

                         ADDITION TO THE RECORD

Cynthia Hilton, Executive Vice President, Institute of Makers of 
  Explosives, written statement..................................   103


[GRAPHIC] [TIFF OMITTED] 79896.001

[GRAPHIC] [TIFF OMITTED] 79896.002

[GRAPHIC] [TIFF OMITTED] 79896.003

[GRAPHIC] [TIFF OMITTED] 79896.004



                  IMPLEMENTING MAP-21: PROGRESS REPORT


                        FROM U.S. DEPARTMENT OF


                  TRANSPORTATION MODAL ADMINISTRATORS

                              ----------                              


                        THURSDAY, MARCH 14, 2013

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order. Our Senior 
Minority Member, Mr. DeFazio, I know is here. I saw him in the 
hall a minute ago, so I think he will be here in plenty of time 
to make his statement.
    I should just note that we appreciate the good work that 
you and your staff did in preparing the statements and that you 
will be doing your best to summarize them in approximately 5 
minutes or so. There was a delay in the receipt of one or two 
of the statements, and I understand it is not anyone's fault in 
The Department, that OMB was a little slow in reviewing the 
testimony. And we join with you in urging them to do it in a 
timely fashion, because it enables staff and Members to do a 
better job of reviewing your testimony and preparing to ask 
questions, and so it is an important part of the process to do 
things in a timely manner.
    Today's hearing will focus on oversight of the Department 
of Transportation's implementation of the law Moving Ahead for 
Progress in the 21st Century, better known as MAP-21. MAP-21 
was signed into law by the President on July 6th, 2012, and 
authorizes the Federal Highway Transit and Highway Safety 
Programs through September 30th of 2014. It consolidated or 
eliminated over 70 Federal programs that were duplicative. 
These changes provide greater focus on the core national 
systems and give States greater flexibility to meet their 
transportation needs.
    MAP-21 also started the process of holding States and 
transit agencies accountable for their funding decisions. 
States and transit agencies, in conjunction with metropolitan 
planning organizations, will have to incorporate performance 
measures into their long-term transportation plans. These 
performance measures will help States and transit agencies 
focus their limited Federal resources on projects that have the 
greatest benefit.
    MAP-21 made major reforms and improvements to the project 
delivery process. It currently can take almost 14 years for a 
transportation project to be completed if Federal funding is 
involved. This is unacceptable. Some of the MAP-21 reforms 
include allowing Federal agencies to review projects 
concurrently, penalties for agencies that don't meet project 
review deadlines, and expanded categorical exclusions for 
projects in the existing right-of-way or with limited Federal 
investment. These reforms will help cut bureaucratic red tape 
and quickly deliver the economic and safety benefits of 
transportation projects.
    MAP-21 also created a program to provide relief for public 
transportation systems that were affected by a natural disaster 
or catastrophic failure. Previously, transit agencies had to 
work through FEMA to replace equipment or rebuild their systems 
after a disaster, but after Hurricane Katrina, transit agencies 
sought an emergency program similar to the Emergency Relief 
Program operated at Federal Highways Administration. This 
program was recently utilized by States and communities that 
were affected by Hurricane Sandy.
    Numerous trucking safety provisions were included in MAP-
21, which reflects Congress' commitment to keeping truckers and 
the traveling public safe. The Federal Motor Carrier Safety 
Administration is tasked with implementing new regulations on 
electronic logging devices, hazardous materials, safety 
permits, a drug and alcohol clearing house, and motor carrier 
registration requirements related to unsafe reincarnated 
carriers. These regulations will keep drivers safe while 
maximizing the efficiency of the trucking industry.
    Congress recognized that new challenges have emerged 
affecting highway safety. The National Highway Traffic Safety 
Administration is required to implement a national priority 
safety program that incentivizes States to pass and enforce 
laws that address important safety issues. The program focuses 
on impaired driving countermeasures, occupant protection, 
motorcycle safety, distracted driving, and graduated driver's 
licensing.
    These reforms are only part of the sweeping changes made in 
MAP-21, and I look forward to hearing from the Administrators 
on how their agencies are implementing the reforms that I have 
highlighted and others that we will include in MAP-21.
    Now I would recognize Ranking Member DeFazio for an opening 
statement, should he care to make one.
    Mr. DeFazio. Thank you, Mr. Chairman. I will be brief. I 
want to hear from the witnesses here before us today. In the 
last Congress, MAP-21 was one of the few products of any note, 
and it did provide for essentially a status quo continuation of 
our existing service transportation programs; however, as we 
know from numerous commission reports and reports from the 
American Society of Civil Engineers and others, that level of 
investment is inadequate. Our systems are deteriorating more 
quickly than we are repairing them and we are failing to 
undertake major new initiatives to get people out of 
congestion, make the country more competitive in the world, and 
we are lagging far, far, far behind our international 
competitors, who realize the importance of investing in 
transportation, moving goods and people more efficiently.
    It has been, you know, a given since the founding of the 
Nation, George Washington with canals, Abraham Lincoln with 
railroads, Dwight David Eisenhower with highways, and Ronald 
Reagan incorporating transit into the Highway Trust Fund, that 
these are basic and important investments that need to be made 
by the Federal Government on behalf of the States and 
territories, you know, the problem of, you know, us continuing 
to grow.
    And I look forward to having a dialogue today and I will be 
in particular focused on the fact, and most of our colleagues 
who aren't on this committee don't know this and many of our 
colleagues on this committee don't know this, that in 2014, 
Federal investment in service transportation, which is 
currently about $50 billion a year, will drop to $6 to $7 
billion in 1 year. That will mean basically the States will 
have to get in line to get reimbursed for projects that they 
have already undertaken, and the States are very unlikely to 
initiate new projects in that year, given the dearth of Federal 
funds.
    And this is something that we need to begin talking about 
in this committee. I know no one wants to talk about taxes or 
revenues of any sort, but that is the reality: $50 billion this 
year; 2014, $7 billion. That is pathetic, and we have to do 
something about it. And I am going to be asking the various 
witnesses how they plan to handle that in the agencies under 
their jurisdiction.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you. I would now like to recognize the 
chairman of the full committee, Bill Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. And I just want to 
echo what Mr. DeFazio said there. That is our biggest challenge 
we face moving forward, and so we need to--as I have said over 
and over, we have got to look at all of the options that are 
out there and look at some new options to funding the 
transportation system. Think outside the box, if you will.
    But today here we appreciate the witnesses being here and 
this oversight. Thank you, Mr. Chairman, for having this 
oversight hearing how MAP-21 is being implemented. I think it 
is important. It is a historic piece of legislation with the 
many reforms and the consolidations that we have put in place.
    I would be remiss by not thanking Chairman Mica for his 
leadership on shepherding the bill through the last Congress, 
and as Mr. DeFazio says, one of the success stories of the 
112th Congress.
    I am especially interested in the performance measures and 
the planning process. I think that is something that will go a 
long way to improving the system, but again, we need to make 
sure we are on top of what is happening, what is not happening, 
what is working, what is not working, so as we move towards 
next year and reauthorizing another surface transportation 
bill, we can learn from the past.
    I also just want to let folks know that starting sometime 
this spring, the vice chair of the full committee, Mr. Duncan, 
we have set up a special panel, strengthening the economy by 
improving freight transportation, something the Hill for 6 
months will be studying hard, not only here in Washington, but 
we will get out into the countryside trying to figure out, 
trying to make recommendations to us on legislation that will 
improve the movement of freight, the movement of goods in this 
country.
    So I look forward. As I look out in the audience today, a 
lot of folks are interested in those things. And as we move 
forward, Chairman Duncan will be looking at those in an in-
depth way.
    So again, thank you, Mr. Chairman, for having this hearing 
today, and look forward to the testimony. I yield back.
    Mr. Petri. Thank you. I would like to recognize the Senior 
Minority Member of the full committee, Nick Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. And I first want to 
commend all the Administrators with us this morning for the 
tremendous job they do under very difficult circumstances and 
in the face of such adversity, certainly with respect to the 
sequester and the fact that here in the middle of March they 
still do not know what their budgets will look like for the 
remainder of the fiscal year. So that has to be an extremely 
challenging proposition for each of you. To those who say that 
the Federal Government should be run like a business, well, 
this is no way to run a business.
    Today I do look forward to hearing about and discussing 
some of the initiatives that I spearheaded in MAP-21, such as 
closing the loopholes that allowed projects to be subdivided 
into separate contracts to avoid complying with the Buy America 
provisions.
    I am also concerned with an administrative effort by FHWA 
to expand the 30-year standing waiver exempting all 
manufactured projects from Buy America. This expansion of the 
waiver was done by memo, without public input and no 
opportunity for comment.
    In the area of transit, I have concerns with the new Bus 
and Bus Facilities Formula Grant Program, which is being 
implemented as grants to the States rather than directly to 
transit systems in areas with a population of less than 
200,000. And I look forward to some discussion of that during 
this hearing.
    There is one additional area that I believe deserves 
discussion, and although today may not be the appropriate time 
since not enough time has elapsed since enactment of MAP-21, 
and that is how the States are addressing what were formerly 
called transportation enhancements, scenic byways and 
recreational trails under the new TAP program, the 
Transportation Alternatives Program. And in this regard, I 
commend you, Chairman Petri, for the leadership and strong 
advocacy that you have been over this program.
    So these initiatives first authorized in landmark ISTEA in 
1991 have done so much to improve the quality of life in rural 
and urban areas as well.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you. And now we turn to our distinguished 
panel, consisting of Administrator Victor Mendez, Federal 
Highway Administration; Peter Rogoff, Federal Transit 
Administration; Administrator Anne Ferro, Federal Motor Carrier 
Safety Administration; and David Strickland, National Highway 
Traffic Safety Administration.
    Again, we thank you for the effort that went into this, 
invite you to summarize the remarks, the statements in about 5 
minutes. And I think we will begin with Administrator Mendez.

  TESTIMONY OF HON. VICTOR M. MENDEZ, ADMINISTRATOR, FEDERAL 
 HIGHWAY ADMINISTRATION; HON. PETER M. ROGOFF, ADMINISTRATOR, 
      FEDERAL TRANSIT ADMINISTRATION; HON. ANNE S. FERRO, 
ADMINISTRATOR, FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION; AND 
   HON. DAVID L. STRICKLAND, ADMINISTRATOR, NATIONAL HIGHWAY 
                 TRAFFIC SAFETY ADMINISTRATION

    Mr. Mendez. Well, thank you. And good morning everyone. Mr. 
Chairman, Ranking Member DeFazio, members of the subcommittee, 
thank you for this opportunity to discuss the Federal Highway 
Administration's progress in implementing MAP-21.
    Immediately after President Obama signed MAP-21 last year, 
FHWA moved very quickly to effectively carry out its 
provisions, and I am pleased to highlight our extensive efforts 
to date. Transportation moves our economy, and your bipartisan 
support for MAP-21 is a recognition of the national priority to 
keep America's transportation network operating safely and 
reliably. MAP-21 sustains our Highway Trust Fund and provides 
States and local communities with a 2-year horizon of funding 
to build the roads, bridges, tunnels and transit systems that 
our economy needs to stay competitive. That means contractors 
and construction companies are able to plan for big projects 
and make the kind of employment decisions that put hardworking 
Americans back to work.
    Under MAP-21, Congress provided $81 billion for a 
restructured performance-based Federal-aid highway program to 
better target investments and increase transparency and 
accountability. And FHWA wasted no time to provide States 
guidance and other information, including anticipated funding 
amounts, to ensure States could adequately plan and begin 
obligating funds on October 1st for critical projects.
    MAP-21 also makes great progress in improving safety, 
expanding the TIFIA credit program, and ensuring better 
transportation planning. It also includes many provisions that 
complement the successes of FHWA's Every Day Counts innovation 
initiative, which I launched 3 years ago to present new 
technologies, new ideas, and new ways of thinking to deliver 
projects faster and expedite the deployment of new and proven 
technologies into the marketplace. These provisions will help 
us become more innovative, allow the public to enjoy the 
benefits of upgraded infrastructure sooner, and ensure the best 
value for every taxpayer dollar.
    MAP-21 provided DOT with unprecedented opportunities to 
improve freight movement throughout our Nation, including the 
establishment of a national freight policy and national freight 
network, and the development of national and State freight 
plans. Our implementation efforts to date are very extensive, 
beginning with Secretary LaHood's announcement of the creation 
of our Freight Policy Council last summer, which brings 
together senior DOT leadership and a variety of experts.
    We are also creating a National Freight Advisory Committee 
to engage the public and private sector to help us improve the 
way we move freight. And, we are actively working to designate 
the national freight network to better focus attention on the 
highways most critical to the movement of goods.
    MAP-21 made a number of other reforms to existing programs 
and provisions that required our immediate attention and action 
to ensure that Federal, State, local and tribal transportation 
partners were ready on October 1st. Accordingly, shortly after 
MAP-21 passed, we created a MAP-21 Web site to link our 
employees, stakeholders, and the public to the new act and to 
provide related resources as they became available. We held 26 
informational Webinars across the spectrum of our programs that 
reached over 10,000 stakeholders. We also provided several 
opportunities to hear from the public. For example, in the area 
of performance management, we held a series of listening 
sessions and other meetings last summer. And in September, we 
held a National Online Dialogue with more than 8,000 visitors, 
who contributed 228 ideas for our consideration.
    Additionally, we developed and posted on the Web site 
numerous guidance documents, questions and answers, and other 
information in a timely manner to help the Nation's Federal, 
State, local, and tribal transportation agencies implement MAP-
21 programs and provisions, and to highlight opportunities 
available under the new law.
    We also took swift action to implement MAP-21 provisions 
requiring regulatory changes. Our collaborative efforts with 
FTA and other Federal agencies helped us to meet several 
rulemaking deadlines, and we are on track to complete all of 
the remaining requirements.
    The achievements I have highlighted today represent just 
some of the efforts we have underway at FHWA to implement MAP-
21. We look forward to working with all of you as we continue 
to make progress toward full and effective implementation of 
these critical programs and provisions.
    So with that, Mr. Chairman, I conclude my remarks and would 
be happy to answer your questions.
    Mr. Petri. Thank you. Administrator Rogoff.
    Mr. Rogoff. Thank you, Mr. Chairman, Ranking Member 
DeFazio, and other members of the committee. I appreciate the 
opportunity to highlight the Federal Transit Administration's 
progress toward implementing key provisions of MAP-21, which 
makes many bold policy changes that the administration has 
sought. Despite facing an array of funding challenges, I am 
pleased by the progress we are making to implement MAP-21 at 
the FTA.
    As you pointed out, Mr. Chairman, in your opening remarks, 
we have a new Emergency Relief Program, which the President 
first proposed in his budget for 2012. It was authorized in 
MAP-21, and thankfully it was enacted in time for the worst 
natural disaster ever to befall public transportation in the 
United States, Hurricane Sandy, which affected more than 40 
percent of the Nation's transit ridership at the height of the 
storm.
    The Disaster Relief Appropriations Act originally granted 
$10.9 billion to FTA to reimburse transit agencies for response 
and immediate recovery and to mitigate the impact of future 
disasters. To date, we have allocated more than $390 million of 
that amount to reimburse the hardest hit agencies in New York, 
New Jersey, and elsewhere. By next week, we intend to award 
more than $150 million in additional funds. By the end of this 
month, we will announce the distribution of the first $2 
billion made available under that program.
    At the Obama administration's urging, Congress granted FTA 
historic new authority to provide long overdue Federal safety 
oversight, and we welcome this new responsibility. Our goal is 
to implement a safety management system approach that improves 
safety using commonsense standards that will add value without 
adding a great deal of cost or burdensome regulations to our 
transit agencies.
    We recognize going in that a one-size-fits-all approach to 
safety is not the best approach for the unique needs of 
individual transit providers. FTA will set a national framework 
and then work with each agency to develop a safety system that 
targets its greatest safety vulnerabilities, and those 
vulnerabilities will not be the same from one transit agency to 
the next.
    Meanwhile, we have begun to work closely with all of the 
affected Governors, our transit rail safety advisory 
committee--TRACS--and other stakeholders to embark on the 
necessary rulemaking and public education process.
    I would like to follow up on something that Mr. DeFazio 
spoke to, namely the condition of our infrastructure, because 
keeping our transit system safe goes hand in hand with bringing 
our aging systems into a state of good repair. Following on the 
Administration's budget proposal, MAP-21 established a new, 
vitally needed formula program for railways and busways, and 
initiated a new national transit asset management program that 
will cover all transit systems. This program will help the 
industry tackle deferred rehabilitation, replace outdated 
transit assets, and support ongoing maintenance efforts that 
are key to maintaining a transit network that continues to 
provide reliable and desirable service for the American public.
    I appreciate the committee's support for the policy goals 
in MAP-21; however, I need to remind the committee that FTA 
faces budget challenges that hamper our ability to address 
these goals. Some of those challenges Mr. Rahall spoke to in 
his statement.
    Overall, the sequester struck $656 million from FTA's 
budget. It reduced program funding for our capital investment 
grants program by almost $100 million. This will mean that few, 
if any, additional New Starts construction projects will be 
fundable in the near term. Even more troubling is the fact that 
ongoing major New Starts and Small Starts projects will 
experience increasing borrowing costs as FTA will now be 
required by sequestration to slow its scheduled grant payments 
to projects for which we have already made written financing 
agreements.
    Even without the sequester, under MAP-21, our New Starts/
Small Starts capital investment program was authorized to 
receive 10 percent less in funding when compared with amounts 
available to carry out the projects in recent fiscal years.
    These are just some of the significant funding challenges 
that direct our programs and really undermine some of our 
efforts to serve a record number of transit riders. And I would 
emphasize that: we are seeing a record number of transit riders 
across the country today. FTA will still do all it can to 
continue making progress to live up to the promise of MAP-21 
with the resources we have available to us.
    And if I could just speak to one other thing that Chairman 
Shuster mentioned and Administrator Mendez mentioned. The area 
of freight policy is one that holds great promise for 
coordination between the new task force that the chairman 
mentioned and what we are doing at DOT. Administrator Mendez 
spoke to the fact that the Secretary has stood up a new Freight 
Policy Council and has brought together a freight advisory 
committee that we are convening now. It just seems to me that 
this is a unique opportunity to have those two entities work 
together with Chairman Shuster's task force toward identifying 
common challenges and work toward common goals, and we look 
forward to that partnership going forward.
    Thank you.
    Mr. Petri. Thank you. Administrator Ferro.
    Ms. Ferro. Thank you, Chairman Petri, Ranking Member 
DeFazio and subcommittee members. Thank you for the opportunity 
to join my colleagues today in sharing the Federal Motor 
Carrier Safety Administration's plans to implement the 
provisions of MAP-21.
    Let me start by thanking the subcommittee and the full 
committee for your work on this important legislation. It 
absolutely has provided the FMCSA key enforcement tools to 
carry out its mission to reduce crashes and injuries involving 
large trucks and buses. Every life is precious, any one is one 
too many to lose, and we are absolutely grateful for the 
provisions in MAP-21 that really strengthen our overall 
authority.
    The legislation enhances enforcement strategies consistent 
with the agency's three core principles, which are raising the 
bar to come into this industry, to ensure that those who are 
operating are maintaining high standards as they operate on our 
highways, and to make sure everybody has the tools to get the 
bad actors off the road.
    FMCSA began putting our new safety tools into place quickly 
after enactment of the legislation. Late last year, for 
example, we ordered a rogue moving company in California that 
was holding hostage the goods of 54 consumers, refusing to 
release them until they pay a significantly higher rate. We 
were able to use the new authority under MAP-21 not just to 
order the company to release the goods, but to promptly revoke 
their authority as well.
    Just a couple weeks ago we used new authorities within MAP-
21 to shut down a bus company that had refused us access to 
their records as we were completing a thorough investigation of 
their operations. We promptly revoked that company's authority. 
We are working with them today.
    MAP-21 rulemaking provisions are a key element of our 
priority work plan, as they need to be. We are implementing 
them very carefully and deliberately.
    The drug and alcohol clearinghouse, for example, that is 
required in MAP-21 is one that we expect to have on the street 
as a proposed rule this spring. That is a clearinghouse 
provision that will provide employers preemployment knowledge 
of applicants who may have tested positive for drugs or 
alcohol, or test refusals, and thereby avoid hiring someone 
that is not qualified to operate a commercial vehicle.
    MAP-21 also directs FMCSA to implement a full-scale 
electronic logging requirement for all entities operating under 
hours of service, maintaining records of duty status. We cannot 
move quickly enough on this important legislation that 
transitions the paper logbook world into one where hours of 
service are monitored electronically, thereby improving overall 
compliance with a very important provision.
    We have met extensively through listening sessions and 
other meetings with our advisory committee, listening sessions 
with a broad audience of drivers, enforcement personnel, 
industry specialists, technology providers to ensure we are 
getting the provisions right in that rule, and we expect that 
to be a supplemental notice of proposed rulemaking 
incorporating all the requirements within MAP-21 by September 
of this year.
    We are actively working on other requirements as well 
within the new MAP-21 legislation. That includes implementing a 
knowledge test for any applicant for authority prior to gaining 
their authority, to demonstrate their knowledge not only in our 
safety rules, but where applicable in consumer and commercial 
rules as well.
    We are proceeding ahead with behind the wheel and classroom 
training requirements for CDL operators, and moving forward 
with very important research, including a field test on a 34-
hour restart provision, including examining insurance minimums, 
and assessing crash rates under the new agricultural 
exemptions, which just went into a final rule actually posted 
today.
    All in all, MAP-21 helps this agency raise the safety bar 
for operators on our highways, making our roads safer for 
everybody.
    And with that, again, Mr. Chairman, Ranking Member DeFazio 
and Members, we thank you, and I will be pleased to answer any 
questions.
    Mr. Petri. Thank you. Administrator Strickland.
    Mr. Strickland. Thank you. Good morning, Mr. Chairman and 
Ranking Member DeFazio and members of the committee. I 
appreciate on behalf of National Highway Traffic Safety 
Administration to testify about the implementation of our 
agency's work on MAP-21.
    Every member of this committee is aware of the challenges 
that the Department faces in roadway safety, and that is why we 
appreciate the prioritization that was enumerated in MAP-21.
    Highway fatalities fell to 32,367 in 2011, making it the 
lowest level since 1949 and a 1.9-percent decrease from the 
previous year. The historic downward trend in recent years 
continued through 2011 and represents a 26-percent decline in 
traffic fatalities since 2005. For the first time since 1981, 
motor vehicle crashes were not among the top ten causes of 
death in the United States. In 2011 we also saw the lowest 
fatality rate ever recorded with 1.10 deaths per 100 million 
vehicle miles traveled.
    Other important data points include that fatalities 
declined by 4.6 percent for occupants of passenger cars and 
light trucks. Drunk driving fatalities dropped 2.5 percent in 
2011.
    The number of people killed in distracted affected crashes 
rose by 1.9 percent. Fatalities increased amongst large truck 
occupants by 20 percent. I would like to assure the committee 
that we are working closely with my fellow Administrator, Anne 
Ferro, and the Federal Motor Carrier Safety Administration to 
gather more detailed information about the issues around large 
truck occupant crashes to better understand this increase that 
we saw.
    Bicycle and pedestrian fatalities increased by 8.7 percent 
and 3 percent, respectively. This spike is alarming, and we are 
taking a number of steps in addressing this. First, the 
Department will be hosting two bicycle safety summits in the 
coming year. We will be working with advocates, safety experts 
and average riders. We look to examine what safety strategies 
work and what isn't working, and will use this information to 
make bicycling safer throughout the Nation. We will target a 
series of events in the areas that have experienced the most 
fatalities and will work with State and local officials to make 
sure they are taking advantage of the resources available to 
them.
    We will challenge our State and local partners to help us 
better understand what is happening on the ground; for example, 
to what extent changes in bicycle fatalities might be related 
to increased ridership. And, finally, we will launch a new 
demonstration program to improve driver and pedestrian 
interactions and behavior.
    In spite of all of our gains in lowering overall 
fatalities, motor vehicle traffic crashes continue to be a 
leading cause of death for those that are in our younger age 
groups. That is why programs such as graduated driver licenses, 
or GDLs, are so important. And I am pleased that the Congress 
authorized incentive grants in MAP-21 to encourage more States 
to adopt such an approach for younger, inexperienced drivers.
    MAP-21's consolidation of the various grant programs from 
SAFETEA-LU into the new Section 405 National Priority Safety 
Program is actually a great bonus and administrative relief for 
the States that actually use our programs. We have been looking 
to have a consolidated application and annual deadline and 
greater flexibility to ensure grant funds are directed to 
priority highway safety programs.
    We have acted quickly to implement these particular 
programs. Less than 2 months after enactment, we have issued a 
notice of fund availability for the distracted driving grants. 
At the last deadline of the month, 34 States, including the 
District of Columbia and three territories, have submitted 
applications for these grants. We published an interim final 
rule for the National Priority Safety Program in January 2013. 
This IFR provides States the guidance about the application 
process for all NHTSA highway safety grants. The comment period 
will remain open until April 23rd, 2013.
    In support of learning about these new programs, we have 
conducted three Webinars with the State Highway Safety Program 
offices and with a step-by-step process of how the new grant 
processes work. We will have two additional Webinars scheduled 
for March.
    Please be aware that the full year continuing resolution 
passed by the House last week would fail to provide funds for 
NHTSA in a manner consistent with MAP-21. Specifically, it 
would not provide funding for the two new important MAP-21 
grant programs, the distracted driving grant and the graduated 
driver's licenses program for young drivers. The Senate's 
version of the CR fully implements this MAP-21 authorization. 
We urge this committee to work with the Congress and make sure 
that resources for NHTSA can support these important priority 
safety programs.
    As an agency, we are dedicated for our mission for safety. 
We work closely with the States and will continue our 
partnership to make sure that MAP-21 is effectively 
implemented.
    Thank you again for this opportunity, and I look forward to 
answering your questions.
    Mr. Petri. Thank you. Thank you all for your statement. And 
I think I will begin the questioning. I would be remiss if I 
didn't state that the biggest thing facing the committee and 
the country within the transportation area is how to maintain 
our infrastructure and adapt it to the opportunities and needs 
of the times. And as you all know, the Highway Trust Fund 
provides funding for most highway transit and highway safety 
programs and is projected to run out of money in 2015. I 
understand the income, covering about 60 percent of the total 
that is going out, is something that needs to be addressed.
    Does the Administration have any recommendation on how to 
address the long-term solvency of the Highway Trust Fund?
    Mr. Mendez. Mr. Chairman, let me address some of it, and 
the other Administrators may wish to chime in on this.
    I think one of the really important issues that we are 
facing, as you mentioned, is the issue of funding. And as we 
move forward, I can tell you one of the really critical pieces 
of MAP-21 is the TIFIA program. Certainly we have raised the 
awareness of bringing the private sector into the industry to 
help us with the funding issues. So I think that is really a 
good thing that you have done and increased, within MAP-21.
    Obviously, the bigger issue is, of course, working with the 
administration and with Congress finding solutions to move us 
to where we need to be and be able to invest as a Nation to 
move forward.
    Mr. Rogoff. Sir, obviously the condition of the Highway 
Trust Fund is a concern to all of us, as we have to monitor the 
balances to make sure that we are going to get through the MAP-
21 period in a fashion that will enable us to continue to make 
grants through 2014.
    I think it is notable the President did propose in his 
budget last year a proposal to use half the savings from the 
drawdown in the wars in Iraq and Afghanistan to maintain 
transportation spending at robust levels absent a trust fund 
solution. So there is a proposal to make sure that we do not 
fall off the cliff. It is not necessarily a trust fund 
solution.
    Ms. Ferro. I have nothing further to add.
    Mr. Strickland. Likewise.
    Mr. Petri. I would just note that the association 
representing the trucking industry is now endorsing an increase 
in diesel fuel taxes, which have not been increased since 1993, 
not because they want it, but because they need the 
infrastructure for their industry, and feel that of the 
different choices that they confront this is probably the most 
feasible.
    And we do see a number of States--and of course, these 
programs are Federal, but they are administered through the 
States in the highway area, and they face many, many challenges 
and opportunities at that level, and raise their own funding. A 
number of States are stepping up, whether it is Virginia or 
Wyoming recently, or others. So we are at some point going to 
have to do our duty however we can at the national level so 
that our country has adequate transportation infrastructure 
going forward.
    I am interested in Administrator Ferro's discussion of 
electronic log recordkeeping for drivers. And this is clearly a 
way to make it much more accurate. It also runs some risks of 
being sort of too rigid in the sense that if you run into 
situations, you must have some fudge factor or if a driver is 
within a few miles of being at home and suddenly runs up 
against the limit, is supposed to lay over for a period of 
time. How do you reconcile the standards that are written down 
that look very precise with the reality that people's fatigue 
level and so on on an individual basis varies quite a bit, and 
one-size-fits-all is easy to administer, but it is not 
necessarily sensible in the individual situation? We are going 
to get a lot of pushback, as you know, and you already are, on 
some of this.
    Ms. Ferro. Well, Mr. Chairman, your point with regard to 
the value of a uniform electronic logging rule is a very strong 
one as it pertains to safety and ensuring, again, that everyone 
is sort of operating on a level playing field when it comes to 
hours of service compliance.
    We have seen a number of companies, large and small, 
transition to the use of electronic logging devices, and doing 
so very effectively, very profitably and finding that it is a 
very efficient mechanism, and over time, sometimes almost 
immediately, drivers prefer it as well.
    With regard to developing the rule, as committee members 
know, we have been working on this issue and the development of 
a strong electronic logging rule for several years now and have 
included in that development a number of listening sessions 
with industry, with drivers at the Mid-America Truck Show, with 
a broad cross-section of interest groups, and I feel very 
strongly that we are incorporating a number of those comments 
and that input into the SNPRM that we are developing.
    It really has four core factors in the rule itself: first 
are just the technical specifications for the equipment, which 
shares its own complexity and requires flexibility with the new 
technologies today; ensuring that drivers are not harassed with 
the use of those devices; ensuring that any sort of supporting 
documents requirements that are required to document and prove 
an operator's hours are reduced and streamlined through the use 
of those devices; and then the requirement itself. Again, we 
are taking that concern that you raised into account.
    Mr. Petri. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Rogoff, the new 
Transit Safety Oversight Program, what is going to happen to 
that with sequestration in terms of implementation?
    Mr. Rogoff. Well, it certainly----
    Mr. DeFazio. Turn on your----
    Mr. Rogoff. I am sorry. It certainly holds us back. Like a 
number of the other MAP-21 regulatory requirements, 
sequestration is going to result in a sizeable hit to my 
administrative budget, which is likely to result in us having 
to furlough people before the end of the year unless some 
relief is found.
    And obviously we have always treated safety as the highest 
priority. That has been the Secretary's entreaty to us, and we 
have always followed that, but this new safety authority is one 
where this committee actually authorized some increased 
administrative funding for us, recognizing that we needed that 
additional staff complement to take on this new responsibility.
    Mr. DeFazio. Uh-huh. OK.
    Mr. Rogoff. What is happening is the reverse. Rather than 
get the added authorized levels, we are getting a freeze minus 
the sequester.
    Mr. DeFazio. OK. Good. So we have got a problem there. And 
I just got--my most recent numbers I have are that the National 
State of Good Repair Assessment estimates that $77.7 billion of 
the assets for the entire transit industry are past their 
expected period of reliable service, which would sort of point 
to me the need for this oversight and safety. I mean, we killed 
some people here in DC because of the outmoded equipment, and 
so I am sure elsewhere we have problems.
    Mr. Rogoff. Indeed. We have viewed the safety 
responsibility and the new state of good repair challenges as 
one in the same in many ways. Unfortunately, I have to point 
out that that $78 billion estimate is now a couple of years old 
and it is probably higher.
    Mr. DeFazio. Thanks. Ms. Ferro, just two quick questions. 
One is the drug and alcohol clearinghouse, great, but I held a 
hearing a few years ago here where we found that the chain of 
custody doesn't exist, that there were onsite, you know, 
coaching to fake up your drug tests, the collection points are 
not monitored in any way, and, in fact, are often a point of 
fraud.
    So have we done anything to deal with the collection sites 
and put a little more integrity in this chain of testing?
    Ms. Ferro. Actually, the MAP-21 provisions incorporated--
gave us a stronger level of oversight on the collection sites. 
I can't cite it right now, but I will be happy to follow up 
with you----
    Mr. DeFazio. OK.
    Ms. Ferro [continuing]. Because we share that concern.
    Mr. DeFazio. All right. Thank you. And then also, you know, 
I have been on an issue for quite some time now, and we are 
talking about the logbooks and we are talking about safety, 
that is all great, but you know, I know, people in the audience 
know that a lot of truckers are detained past their operating 
hours at points of dropping off their loads. You know, I mean, 
what are we going to do about that? I mean, you know, they have 
got to move. I mean, come on. We know they are going to move, 
we know they are going to violate their operating hours.
    Ms. Ferro. I agree that drivers who are detained absolutely 
are pressured to finish the leg of their journey. They may be 
detained beyond hours of service. They are going to be pressed 
to complete that journey, probably over hours and probably very 
tired, and clearly very stressed.
    We are continuing some of the work that I think you had 
identified and had GAO do with regard to additional studies on 
the impact of detention time on driver safety.
    MAP-21 also incorporates a provision called a prohibition 
on coercion, which doesn't speak directly to detention time, 
but does speak to the agency's now new opportunity to take 
action in cases where a driver files a complaint that a shipper 
or receiver or another party is exercising some sort of 
leverage or coercion through economic withholding or perhaps 
even physical harm at the point of loading, unloading. And so, 
again, back real quickly on detention, we are completing a 
study. We expect that to be done in 2015, if not sooner.
    Mr. DeFazio. OK. Thank you. And then just quickly anybody 
on what is--what the plans are for 2015? I mean, the chairman 
referenced it, but I am just curious. Are we going to start 
slowing down in 2014 or 2013? I mean, if you see this cliff 
coming, you know, have you made the States aware of it, because 
if they have a 2-year project where the payout would be in 
2015, that might be a problem. Either highways or transit, 
quickly.
    Mr. Rogoff. All I would add, sir, is that we unfortunately 
have had to grow accustomed to this when trust fund balances 
have gotten low. And we do have a mechanism to monitor them, 
and we would have to slow payments. What I can't give you a 
good fix on right now, because we are still a ways out from the 
end of 2014, is whether we are going to have a solvency problem 
within 2014 or not. The Transit Account has sort of teetered on 
both sides of the margin, depending on when you ask, but Victor 
may have other insights on this.
    Mr. Mendez. Yes, sir. In 2008 I believe we faced the 
situation you are talking about. At that point in time, FHWA 
did develop a process.
    Now, I won't go through the entire process, but basically 
at the end of the day what happens, is if you don't have 
sufficient funds in the account, you begin to then delay 
Federal payments to the State DOTs and other recipients.
    Being a former State DOT director, I know on the State 
level what you will be finding is that then you would start 
looking at contracts that you will not issue; you will start 
delaying projects. Critical infrastructure that needs to move 
forward, you won't move forward with those contracts.
    Mr. DeFazio. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Mr. Mendez, I have a 
couple questions for you. In 2005, I authored the NEPA 
reciprocity law that allowed States that equaled or exceeded 
NEPA to only go through one process. They sort of filled the 
paperwork out, but they didn't have to go through the 
duplicative process. And only one State took advantage of it, 
California, and they have really done well. They have probably 
saved 17 months off the process time, and delivery time about 
30 months.
    And I authored the language in Section 1313 of MAP-21 that 
also would have allowed all the States to do it. It is a 
permanent program. I am sad that the Senate didn't accept our 
language. We don't have to fill out one piece of paper, but we 
have to do the duplicative process still, but it allows States 
with environmental laws that equal or exceed NEPA not to have 
to go through both processes. The original language I authored 
would have allowed counties and cities to do that, but it was 
stricken in the Senate.
    But California has done a very good job on the process. But 
do you kind of agree that to avoid the duplicative process 
would be beneficial to all the States?
    Mr. Mendez. If you look at MAP-21, you did open up that 
provision to allow other States to actually participate. So we 
are looking very hard, working with AASHTO and the States to 
once again take a look at that and see how we might be able to 
encourage other States to participate within that provision.
    And it is very true. We have found in California as we 
looked at some of the data that the environmental process they 
follow has actually been very beneficial. I believe the numbers 
you quoted are pretty accurate, 17 to 18 months' reduction in 
the process. So we are going to continue to work with the 
States and see what we can do to encourage others to 
participate.
    Mr. Miller. Well, if you can do it in California, I believe 
you can probably do it anywhere, because California's a very 
tough State on the process of environmental review. Do you 
expect DOT to grant the eligible States ability to do this to 
qualify in the near future?
    Mr. Mendez. Oh, absolutely. We will implement the 
provisions as you have mandated.
    Mr. Miller. And what methods are you using to determine the 
effectiveness of the streamlining regulations and implementing 
the plan?
    Mr. Mendez. Well, with regard to the overall streamlining, 
because you did provide to us various provisions for 
streamlining the environmental process, we have undertaken 
many--we have implemented a lot of guidance to help the States 
move forward in that regard.
    We also have quite a few rulemaking processes that are 
underway to help us implement all the provisions for 
environmental streamlining. I have a whole list that I probably 
could provide to you after the fact, but we are working very 
hard to implement all these provisions.
    I can tell you moving a project forward in terms of project 
delivery, environmental streamlining, has been a very major 
issue, not only for us at FHWA since I have been there, but 
really for the entire administration. I can tell you as an 
outgrowth of an Executive order we worked with the 
Transportation Rapid Response Team to coordinate with other 
Federal agencies to move some of these projects forward, and we 
have been very successful.
    Mr. Miller. It seems like every project that they put out 
to bid comes in under the engineer's estimates, probably 
considerably, because people aren't busy right now and they can 
deliver projects quicker. Is your focus right now on timeline 
on project delivery?
    Mr. Mendez. Absolutely. Since I have been at FHWA, about 
3\1/2\ years, one of my major priorities has been implementing 
innovation initiatives to help deliver projects in half the 
time. I believe the chairman mentioned it takes about 14 to 15 
years to deliver major projects. My challenge to the industry 
has been to cut that in half. We have implemented the Every Day 
Counts initiative to help us do that.
    And I think at the larger level, I believe if you listen to 
President Obama talk to every individual Federal agency asking 
us to cut the red tape, that is what we are looking at.
    Mr. Miller. You briefly mentioned challenges. What do you 
see as the biggest challenge in implementing this process?
    Mr. Mendez. Well, I think it is just a matter of getting 
the industry on board. We are working, by the way, with the 
private sector and the public sector on a lot of these 
strategies that we have identified to move projects forward. 
And, you know, we are in a fairly conservative industry, so 
taking new ideas and implementing them takes a little bit 
longer. I think what we have provided at FHWA is a venue or a 
channel, if you will, for all State agencies to work with us 
and deploy these strategies nationwide.
    Mr. Miller. Freight delivery is huge in my district, 
because we have the ports of Long Beach and L.A. in California. 
And what do you see in your process to ensure we have a solid, 
well-funded freight line plan that comes out of the DOT to the 
States in the near future?
    Mr. Mendez. Well, as you are aware, within MAP-21, there is 
a big focus on freight movement in a reliable manner and 
reducing congestion. And, by the way, I was at the Gerald 
Desmond Bridge about 2 months or so ago, so I understand the 
challenges you face there.
    As you are aware, within MAP-21, there are certain 
provisions that we need to implement, things like creating a 
national freight network, and we have that process underway. In 
fact, we issued a notice in early February outlining for 
everybody what that process will be to identify the freight 
network.
    We also will be looking at other elements within DOT. The 
Secretary did form the Freight Policy Council. And as was 
mentioned earlier, we are looking to create a National Freight 
Advisory Committee. And, by the way, we are looking for 
nominees, and the deadline for that is March 21st. So it is 
important for us to bring in stakeholders with the right kind 
of experience, both public and private. And whether it is 
safety issues or trucking issues, rail issues, we need all that 
at the table to come up with a strategy that makes sense for 
the entire Nation.
    Mr. Miller. I will have more questions, but the chairman 
has been very generous. Thank you. I yield back.
    Mr. Petri. Thank you.
    Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. Administrator Mendez, 
let me follow up on something I mentioned in my opening 
statement. You recently issued a memo to division officers 
expanding the current 30-year standing waiver exempting all 
manufacturing products from Buy America. Many in the industry 
have questioned the need for the existing waiver, let alone the 
need to expand it.
    FHWA claims that the intent of the memo was to clarify that 
miscellaneous items like faucets, door hinges, fittings, 
clamps, washers, nuts and bolts used on Federal highway 
projects are not subject to Buy America.
    Mr. Administrator, I would ask you to look at the images 
that are on the screen. It is my understanding that these items 
would no longer be subject to Buy America under your memo. Now, 
the last time that I was in Lowe's, if I recall, I could not 
find anything that looked like these items on the shelf, so I 
don't see these as miscellaneous, off-the-shelf items that 
should not be subject to Buy America, but they would be under 
your memo.
    Can you explain to me why the FHWA issued this memo and why 
your agency spoke--or who your agency spoke to prior to issuing 
this memo? Did the agency engage manufacturers and other 
stakeholders prior to issuing the memo?
    And then I am also interested in why FHWA thought it was 
appropriate to make the determination to expand this 30-year-
old waiver through a memo with no notice and opportunity for 
comment.
    Mr. Mendez. Well, thank you. And I do understand the 
concern that has been out there and certainly has been 
expressed to us directly by many stakeholders, but I do want to 
go back to some of your comments. The intent genuinely was not 
to expand or reduce what was already in place. What we believed 
internally was to try and provide to all of our offices 
throughout the Nation--in case you are not aware, we have an 
office in every State--and so we wanted to ensure that this 
waiver for manufactured products was being implemented 
throughout the Nation in a consistent manner. And so that was 
clearly the intent from our standpoint, was internally to 
ensure everybody was doing things consistently.
    And let me point to what we do on a national level, because 
I think I need to put this into context. When it comes to Buy 
America, nobody has set a higher standard than Secretary LaHood 
and our Deputy Secretary Porcari. Whenever we receive a waiver 
request, it is very difficult for us to get them approved. I 
know that, our division administrators know that. So waivers 
are very, very minimal. Within our $40 billion program 
nationwide, I believe in 2011 we issued six waivers at a cost 
of $6 million, which if you look at percentages, it is way less 
than one-tenth of a percent that received a waiver.
    I just want to assure you that we are very focused on Buy 
America, and really our standard has been very high. And on 
that, I can assure you the intent was not to expand the 
authorities.
    Now, since that time, though, a group has issued or 
submitted a legal action against us on that memo, and so we are 
working with the Department of Justice on that issue to see how 
we are going to deal with that legally.
    Mr. Rahall. Do you have any input from stakeholders when 
you issue waivers?
    Mr. Mendez. You mean on this particular issue?
    Mr. Rahall. Yes.
    Mr. Mendez. No, we did not. Like I said, our intent was 
really strictly to ensure consistency within our operations 
throughout the Nation.
    Mr. Rahall. All right. Administrator Rogoff, let me turn to 
you real quickly. As a result of the 2010 census, Huntington, 
West Virginia, Ironton, Ohio, and Ashland, Kentucky, are now 
part of a single new urbanized area, which has a population 
just over FTA's threshold of 200,000 for large urbanized areas. 
There are three small transit systems in the region, but they 
are now each saddled with Federal transit rules designed for 
much larger urban areas.
    One challenge raised by my local transit agency this week 
in Huntington, West Virginia, is that one of the other 
agencies, the Ashland bus system, has refused to negotiate how 
Federal transit dollars are to be divided among the three 
systems in the region. FTA has indicated that until they come 
to an agreement at the local level, all Federal formula funding 
to the UZA will be held up.
    Does FTA have any process in place to address this 
situation? And I am wondering what recourse does a transit 
agency have if another agency in the UZA refuses to come to the 
table?
    Mr. Rogoff. Well, a couple of things. First, the 200,000 
population threshold is not an FTA threshold. It is a threshold 
in the law. So we are limited in our ability in terms of how we 
must interpret it. The census tells us who is in what urbanized 
area and who is not. I have just been made aware of this 
problem between Huntington and Ashland. I think in the old days 
Vicki would have called me in a heartbeat, but she didn't.
    Mr. Rahall. She is not there anymore.
    Mr. Rogoff. She is not there anymore.
    Mr. Rahall. She would have to call from the farm.
    Mr. Rogoff. Right. But I think more importantly, this needs 
to come to closure by the end of this month. The deadline is 
March 27th for them to come to an agreement.
    Now, I am not supposed to intervene in these local 
discussions; however, what I can do is facilitate a 
conversation, and if I need to go out there, I will, and sit 
everyone down and try to force a resolution, because our focus 
is on the passengers and whether the passengers are being 
served, and one of the ways that happens is by being sure that 
our dollars can continue to flow so that transit agencies can 
serve them.
    So I will talk to my regional administrator on this, see 
what the state of play is to date. The problem is, as I 
understand it, the operating cap that would go to Ashland, 
Kentucky, is not sufficient to let them even run their current 
operations, and there is a lot of concern over that. And it is 
a three-State challenge: it also includes Ohio. They need to 
come to some resolution so the dollars can continue to flow. 
And we will help facilitate that conversation if we don't see 
anything coming together by the end of the month.
    Mr. Rahall. All right. I appreciate that. Thank you.
    Mr. Petri. Representative Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. I am proud of 
Florida's Department of DOT for delivering, I know, to my 
office last week the MAP-21 performance report almost 3 years 
early. And I am pleased that the report shows that Florida, our 
roads, our bridges are in good shape. We can always strive to 
do more, but overall I am very pleased by what I see in the 
report, which is a requirement of MAP-21.
    Given that today's hearing is focused on the implementation 
of MAP-21, I am curious, Administrator Mendez and Administrator 
Rogoff, what are you hearing from other States? Are you hearing 
initial reports as far as the conditions of their reports?
    Mr. Rogoff. Well, I would just make the point from the 
transit perspective: we appreciate Florida's leadership in sort 
of stepping out there. They have stepped out ahead of us, 
frankly, in that we have not yet issued the performance 
measures that we are charged with developing in MAP-21. So, you 
know, we view the Florida report as a good, informative 
document where they are saying to us, ``Well, this is how we 
look at it in Florida,'' and that will certainly inform our 
thinking nationally as we develop performance measures for both 
highways and transit.
    I think, importantly, we have a--and I will be interested 
in seeing how Florida addressed this question--we have an 
interesting challenge that you all have charged us with--I 
commend you for doing that--and that is that both agencies have 
a congestion performance measure to come up with, and I think 
it will be the proof that we will come out of our model silos 
if we come up with the identical measure of congestion. That 
may be a challenge. We have been measuring congestion for the 
FTA New Starts program in a variety of ways. FHWA has come at 
it from a different angle. We are going to try and merge these 
approaches and come up to commonality so all 50 States and the 
local communities and the local transit agencies have one goal 
to shoot for.
    Mr. Mendez. I agree with my colleague. I would add one 
other element here, which is that one thing that I have learned 
about the performance management concept is that what I thought 
would be straightforward really is a very complex issue when 
you start talking to all the stakeholders. And then like Peter 
was saying, when you look at a transit congestion approach 
versus a highway approach, what does that look like if you are 
going to be looking at congestion in an overall picture? So it 
is a very complex issue, and we are working on it. I think the 
States recognize and all the other stakeholders recognize the 
complexity, and we are receiving a lot of different ideas.
    Mr. Southerland. Thank you very much. A followup question. 
I know the President has mentioned the number of structurally 
deficient bridges we have around the entire country, and so it 
is a global challenge that we face. But doesn't MAP-21 require 
States to use the funds they receive to improve performance 
rather than redirecting funds from those States, such as my own 
State of Florida, that are already demonstrating good 
performance? I say that because Florida has traditionally been 
penalized for keeping our bridges and roads in good condition 
using State dollars, so we don't just depend on Federal 
dollars, while some other States may get rewarded because they 
don't do some of the usage of their State dollars. So it seems 
to me to kind of be a weird disincentive to do the right thing. 
How do you interpret MAP-21, as I interpret it regarding those 
funds?
    Mr. Mendez. There are a couple of major programs within 
MAP-21. One is the National Highway Performance Program, which 
is geared toward state of good repair, maintaining the system, 
or adding capacity, if you choose to do that, or other 
improvements. There is also another program called the Surface 
Transportation Program, that is STP. That is geared primarily 
toward state of good repair.
    Now, there are some criteria that I don't have right off 
the top of my mind here. But on the safety aspect, if you meet 
some of those performance measures in safety, you then can 
actually utilize some of that for other purposes. So I don't 
really see that as a disincentive or a penalty, if you will. 
MAP-21 actually provided a lot of flexibility to the States and 
the MPOs.
    Mr. Southerland. All right. OK.
    Mr. Rogoff. I don't have anything to add to that, sir.
    Mr. Southerland. That is fine. Thank you very much.
    Mr. Chairman, thank you for holding this hearing, and I 
yield back.
    Mr. Petri. Thank you.
    Mr. Carson.
    Mr. Carson. Thank you, Mr. Chairman. I am particularly 
interested in working on issues related to intelligent 
transportation systems. I want to build on the limited language 
included in MAP-21 and see better utilization of smart 
technologies with our existing infrastructure and really begin 
to implement new technologies. I strongly believe that the 
utilization of intelligent transportation technology can 
improve safety, lower highway fatalities, reduce congestion, 
and help make our transportation system smarter and more 
sustainable.
    Please tell us what your agencies are undertaking at this 
point and the status of this work. Also, tell us about any 
collaborations with non-Federal partners, including educational 
or research institutions, or corporate partners for that 
matter, in terms of helping move this issue forward.
    Mr. Strickland. Well, Mr. Carson, if you don't mind, I will 
start, and I guess my colleagues can definitely follow on. 
Right now the Department is actually at a fairly significant 
point in the Vehicle-to-Vehicle Safety Program and the ITS 
program in general. This year the National Highway Traffic 
Safety Administration will be making an agency decision on 
whether to go forward in issuing a rule or other action in 
regards to vehicle-to-vehicle communications, and it really is 
a landmark moment. We currently right now are running a pilot 
project in Ann Arbor, Michigan, which is going to involve 3,000 
vehicles which all have the V2V beacons and it is actually 
going very well. We are getting an incredible amount of data 
and results from that.
    And you are absolutely right, the prospects of V2V alone 
fully integrated in the fleet, our research has shown, it could 
address up to 80 percent of crash scenarios involving 
unimpaired drivers. That is 8-0 percent. But it is really one 
piece of the entire program. Clearly, the other modes are very 
much involved in being part of the ITS project and 
Administrator Mendez can speak to the work that Federal Highway 
is undergoing for vehicle to infrastructure. But in terms of 
safety and congestion relief and a number of other issues, it 
holds tremendous progress.
    Ms. Ferro. So the area and the use of technology to improve 
the efficiency and safety of the commercial vehicle operating 
industry or sector has been extremely valuable, tying into the 
initiatives that Dave Strickland just walked through. The 
primary area of funding to support States in the area of 
intelligent vehicle implementation is called the Commercial 
Vehicle Information Systems Network grant. It is a grant 
program through the FMCSA and it supports States' efforts to 
implement core technologies that provide for both electronic 
transaction processing, but also electronic bypass capability 
for carriers that demonstrate a level of safety that, as I 
spoke of before, is maintaining the standards expected under 
national law.
    Just last year, in fact, Indiana launched a great event 
demonstrating a partnership between Indiana, Illinois, and Ohio 
with the use of these smart roadside technologies and 
demonstrating how well it works together with States and the 
use of some of the newest, to be sure that law enforcement can 
pull over the highest risk carriers--that is the efficiency 
piece--both checking State credentials, Federal credentials, 
and on-board status. So it is an outstanding approach. Thank 
you.
    Mr. Carson. Thank you.
    Mr. Rogoff. I would add, Mr. Carson, that there are transit 
buses also involved in that V2V project out in Ann Arbor, and 
it captures an opportunity to look at the surface 
transportation system as a system and to be able to give, for 
example, a passenger--if you have a common operating picture of 
how the system is working--bus plus rail plus the streets in a 
car. Eventually we will be able to pick up a smartphone and be 
told what is the fastest way I can get there using a variety of 
options, and especially using options like bus rapid transit, 
which is being contemplated for Indianapolis at the current 
time. So there is great opportunity there.
    As it is right now, the ability to see when the next bus 
and the next train are coming from the PDA has not only been a 
great advent for convenience for the passenger; it has actually 
enabled transit agencies--we don't talk about this much--to run 
less frequent service without a lot of complaint because the 
passenger knows when the bus is going to be there, as opposed 
to needing very short headways to provide reliability.
    Go ahead, Victor.
    Mr. Mendez. One of the items we need to talk about, it is 
one of my favorite topics, is innovation through technology. 
And right now, through our research agency, RITA, a lot of 
research is underway through a joint program office to look at 
vehicle-to-vehicle communication and vehicle-to-infrastructure 
communication and to improve safety, reduce congestion, and 
really improve the quality of life. So a lot of research in 
that arena is underway. I know they are engaged with the auto 
manufacturing companies, along with other private sector 
companies that are out there that deal with this kind of 
technology.
    One other element that we are looking at specifically 
within FHWA, again, through our innovation initiative, is new 
concepts to help us manage traffic better, things like active 
traffic management concepts where you can better time your 
signals on major arterials. Those kinds of ideas are being 
deployed throughout the Nation as well.
    Mr. Carson. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman. And I want to thank 
the panel for spending some time with us today.
    Administrator Mendez, just a quick question on the truck 
weight study required by MAP-21. MAP-21 specifically references 
a 97,000-pound vehicle with six axles. However, it is important 
to note that the legislation we debated last year in this 
committee allowed the States the option of using the vehicles 
instead of mandating them. Under this State option approach, a 
State could decide to not allow those vehicles on a given 
stretch of road while allowing them on others. Different States 
might have varying infrastructure needs and particularly 
compositions of industries. So freight transportation needs 
vary widely across the States.
    I would be concerned if the study ends up looking at this 
issue as a mandate, and I am hopeful that DOT will recognize 
that key distinction. I am interested in any comments you might 
have on this given that this committee will rely heavily on 
that study in the next highway bill debate.
    Mr. Mendez. Well, let me give you a rundown on the status 
of the truck size and weight study because I know there is a 
lot of interest in that. It is a big issue throughout the 
entire Nation. It is very important for us at the Federal level 
as well. We have the study pretty much underway. We have made a 
lot of effort to make that happen. As you mentioned, within the 
study some of the things we are going to be looking at are six-
axle configurations, longer combination vehicles, and the 
97,000 pound issues. But what we have to do and what we are 
doing here is to provide to all of you a data-driven objective 
analysis looking at issues that have to be balanced, things 
like highway safety, impact on infrastructure, the 
transportation of goods throughout the Nation in a safe manner, 
and then looking at how that plays out economically in terms of 
vehicle configuration.
    We are in the process of hiring a consultant to help us 
move through the study itself, and we are going to be looking 
at overweight issues, both overweight and over dimension, both 
individually and then in combination to see what the overall 
impacts would be when you come up with our recommendations. So 
we are also going to be taking a lot of input from stakeholders 
to help us get to a final conclusion.
    Mr. Ribble. Are you including the impact on the environment 
with having fewer vehicles on the road and things like that as 
well?
    Mr. Mendez. Absolutely. And I know one of the concerns that 
I have heard from some Members here, is what is going to happen 
not only in the rural areas, but what about the urban areas and 
what kind of impact do we have on urban areas, because we tend 
to look at freight maybe more in terms of getting from long 
distances, if you will. So we are very focused on this, and we 
will get you a report that is going to be objective and data-
driven.
    Mr. Ribble. I appreciate that, and thank you for that.
    Administrator Ferro, one of the concerns I hear frequently 
from the motor carrier industry is the barriers to entry, as 
well as finding adequate number of drivers in a growing 
economy, which gives me a little bit of pause. In your 
framework, your strategic plan, you State in your testimony 
that you used three core principles, and two of them I am fully 
on board with you on. The third one I have some concerns about. 
It is raising the bar to enter the motor carrier industry. 
Raising the bar would imply there was a bar in a wrong place. 
So the previous bar was X and the new bar is Y. Could you tell 
me what the changes were between the two?
    Ms. Ferro. Absolutely. The first bar of all is at point of 
entry when a carrier applies for and receives their authority 
to operate across the United States in interstate commerce. 
MAP-21 itself sets a stronger bar to come into the industry. 
And one of the weakest points that we have had for many years 
is that it is too easy today, if the agency or State 
enforcement entity takes action against a carrier, identifies 
where that carrier is perhaps presenting an imminent hazard and 
makes efforts to shut them down, they can slip through and 
reapply for authority and in many cases get their authority, 
stick extra DOT numbers in their back pocket, and pull them out 
as needed.
    That is the bar that is way too low today. So it is that 
point of entry. MAP-21 incorporates a knowledge-testing 
requirement prior to obtaining authority that we are building 
into the process; again, sort of just to tighten that net, to 
ensure that those who are coming into the industry understand 
the requirements.
    And if I could just touch briefly, the motor carrier 
industry is small business America. And I am very proud to be 
part of the agency that influences the safe operation of the 
industry. We regulate over 500,000 companies and 85 percent of 
those have 5 trucks or fewer. And it is a very important that 
we continue to support that sort of an operating environment.
    Mr. Ribble. Yeah, and my concern, quite frankly, is that, 
not so much for those that were a bad actor trying to circle 
back around and get back in, but that new young entrepreneur 
trying to create something good for their community, their 
State and family, quite frankly, that we don't get the bar to a 
place that would make it so difficult that they can't get in. 
And that is just a caution I would give you. Thank you very 
much for being here today.
    Mr. Chairman, I yield back.
    Mr. Petri. Thank you.
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. I want to thank the 
panel for being here today and for your testimony. Everything 
we have talked about today costs money, everything. Everything 
you do costs money, from safety to repair to construction. Yet 
we are in the middle of a sequester. We are about to debate a 
CR that cuts back funding. We probably are looking at a 
sequester next year. We have a trust fund that is running out 
of money. And yet it has been very difficult for me, or anyone 
else that I am aware of, to get detailed information as to what 
these actions have meant, specifically. And to be perfectly 
honest, everybody likes to do different things. I am not one 
who likes to throw around hundreds of millions of dollars or 
billions of dollars because it doesn't mean much to my 
constituents. They are kind of used to those numbers and it 
just flows over their head. For me it is much more interesting, 
when I go to my constituents, I talk about specific projects. 
This is what we want to do, or this is what we are trying to 
do.
    I guess what I would like to hear from you, especially Mr. 
Rogoff and Mr. Mendez, are you preparing to specifically list, 
hopefully by congressional district, if not maybe by State, 
specific things that you will not be able to do because of 
these items? And actually I am not looking for philosophical 
statements. That is our job. But, Mr. Rogoff, in specific, in 
my district transit is the big thing. You know, I am pushing 
very hard for at least one, actually several major transit 
projects. They require New Starts funding. And it is one thing 
to get through all the hoops and bells and whistles to get it 
there and it is another thing to get the State to have its 
money. We are having those arguments as well. But none of it 
means anything if New Starts gets defunded, or you can't give 
this particular New Starts project to go ahead because you 
don't have the funding.
    And the same would be with you, Mr. Mendez, on other 
issues.
    And I am not today, because I know that you are still in 
the middle of doing this, are you preparing to be able to give 
us specific lists of specific projects that have to be cut 
because of these different items? I would like to know the 
difference between sequester and trust fund issues. They are 
separate issues. But yet, they are important issues. What I am 
looking for is the ability to have an honest discussion with 
not just my colleagues, but also my constituents, to tell them 
the truth. And the truth is, if you want this project, we have 
to come up with this amount of money. And without this amount 
of money, we can't have the project.
    I guess, Mr. Rogoff, I will start with you, because transit 
is so important to my district.
    Mr. Rogoff. Well, I appreciate that, Mr. Capuano, and let 
me say that this is not hard when it comes to the New Starts 
program to identify the precise projects that we are going to 
have to cut, because we have signed full-funding grant 
agreements that have a specified dollar amount for each one of 
them. These are grant agreements that we put before this 
committee for 60 days in review. Since MAP-21 it is 30 days of 
review. And we presented to the committee precisely what the 
funding increment would be for each year. We have the list of 
these commitments we signed up for in 2013, and I can't afford 
it now as a result of the sequester. And I have got the list in 
front of me, and I will be happy to put it in the record at the 
appropriate time.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 79896.005
    
    [GRAPHIC] [TIFF OMITTED] 79896.006
    
    Mr. Capuano. And again, the sequester is only the 
beginning. We may have another one next year. We have a trust 
fund issue.
    Mr. Rogoff. Well, that is right, and that raises some very 
troubling issues for us because, let's understand, the 
President's budget for this particular program is some $400 
million higher than what the post-sequester level is going to 
be. And we asked for those increased funds precisely because we 
knew the pipeline was expanding and we have more projects 
seeking entry into the program like the Green Line Extension in 
Massachusetts, and if we can't meet the commitments to the 
projects we have already signed up, it does not bode well for 
the projects that want to get in the program in the future.
    Mr. Capuano. I look forward to getting those lists.
    Mr. Mendez.
    Mr. Mendez. Yes. Just to be clear, under the sequester, as 
we sit here today, the Highway Account has been somewhat walled 
off, but there are some impacts, and let me run through that. 
Under the National Highway Performance Program, out of an 
approximately $40 billion program over 2 years, that portion of 
the Highway Account will be reduced by approximately $32 
million in fiscal year 2013. And sometime here in the next 
month or so, we will go back to the States and identify State 
by State how we are going to reduce that $32 million. Now, $32 
million is a lot of money, so we will convey that information 
and obviously, we will share that with you.
    It is also important for me to mention that the Emergency 
Relief Program is going to be reduced by approximately $106 
million. What that really means is, because we do have a 
balance in the Emergency Relief Program, that means that for 
any future events that may occur in the next few months, we 
will not be able to expend. We will have to subtract $106 
million from the account. We will have less.
    Mr. Capuano. Again, I want to be clear. I am asking more 
than just sequester. We have a trust fund issue. We have a CR 
issue. We have another sequester looming next year. It just 
doesn't seem to stop. And I don't want people to think that 
this is a one-time thing. This is a rolling problem that will 
require updates as we go along. And the highway program is not 
walled off of the CR. It is not walled off of the trust fund 
issue.
    Mr. Rogoff. And in fact the sequester next year, you know, 
would be a higher percentage than we are being hit for this 
year.
    Mr. Capuano. Thank you.
    Thank you, Mr. Chairman.
    Mr. Petri. Mr. Williams.
    Mr. Williams. Yes, Mr. Chairman. I would like to somewhat 
follow up on that, then I have another question. You know, I 
hear the fact that we hear sequester all the time. It has 
affected a lot of people. But I would say to all of you, I am a 
small business owner. I still have a business. And the private 
sector has had to cut out a lot more than 2 percent to survive 
these last 4 years. And I think it is important that, as was 
said earlier, you are going to have to have a plan that takes 
us not only for this year, next year, and so forth, to where 
you cut expenses, and at the same time not hindering the 
customer.
    We hear that we are not going to be able to pay certain 
payments on time, this and that. I mean, do you have a plan in 
your mind that you are going to take care of the customer first 
as opposed to taking care of maybe reduction of people in your 
agency or whatever? I mean, the customer comes first, and there 
is not going to be this great amount of cashflow coming through 
as you are beginning to see. And, you know, kind of what is 
your plan with that? I mean, you are having to live like the 
private sector has to live right now.
    Mr. Rogoff. Well, I will just speak for transit. There is 
no question. We have identified in terms of the funding 
reductions that we are taking on the administrative front that 
we are doing our damnedest to avoid any direct impact on 
services to the public. But the bottom line is, I can't 
furlough staff for a number of days that are providing those 
services and maintain that the service is going to be the same. 
We are obviously not attending conferences. We are not doing 
discretionary visits, but this committee charges us with doing 
oversight of the grant money you give us, and our ability to go 
out and do oversight of individual projects to make sure the 
Federal funds are being administered correctly is directly 
undermined by our inability to travel.
    Mr. Mendez. We are going to be facing the exact same issue, 
and I would just lay this out for all of you. It is not a 
complaint, by the way, it is just a reality check here. Even if 
we look at MAP-21, for example, the added burden that we have 
to assume in terms of issuing additional rulemakings, 
additional reports to Congress, the oversight that Peter has 
mentioned, at some point all that will come to a head, and we 
will have to deal with that accordingly. And so, part of our 
charge on the oversight perspective is to ensure that the 
Federal funds are being used accordingly and that we are 
protecting the taxpayer dollars. So it is just something we 
have to look at very closely, and we will continue to do that.
    Mr. Williams. Well, I appreciate that. I just want to 
emphasize that the private sector is having to do this now. It 
is getting in everybody's lap. And the other thing real quick, 
separate, we talked earlier about any ideas you might have to 
help create more funding to supply the Highway Trust Fund. Let 
me ask you a question. You are familiar with the CAFE 
standards. Do you think if we did away with the CAFE standards 
that would be a good source of income to the Highway Trust 
Fund?
    Mr. Strickland. Well, in terms of the CAFE standards, what 
happens is, when there is a noncompliance that automakers will 
pay a penalty.
    Mr. Williams. I am talking about doing away with the CAFE 
standards so there is no penalty.
    Mr. Strickland. Well, in terms of those funds don't go to 
the Highway Trust Fund. Those particular penalties go to the 
General Fund, and those numbers are, frankly, very, very small 
in terms of the overall penalties that the automakers pay every 
year. They are very small.
    Mr. Williams. Well, the 18.4 cents goes in the Highway 
Trust Fund.
    Mr. Strickland. OK, you are talking about the entire, the 
fuel tax. That is not CAFE, so I will defer.
    Mr. Williams. The CAFE requirements of the auto 
manufacturers and the truckings are to meet a certain standard.
    Mr. Rogoff. I think what Mr. Williams may be putting 
forward is, if we repeal the CAFE standards, would the American 
public consume more fuel and thus put more revenue in the 
Highway Trust Fund? Obviously, sir, the President has been very 
outspoken on our need to reduce our dependence on foreign 
fuel--foreign oil--and fuel consumption. That is an 
administration goal. So repealing CAFE is not anything on our--
--
    Mr. Williams. Well, the President and I disagree.
    Mr. Rogoff. OK, very well.
    Mr. Williams. Thank you. Appreciate it.
    Mr. Strickland. And also to follow up, as well, sir, the 
natural momentum of the fleet beyond the CAFE standards do have 
an influence, that every year the actual minimum is actually--
these people are making the market decision to buy more 
efficient vehicles on their own regardless of CAFE. So I think 
in terms of limiting the CAFE standards, the existing fleet and 
the momentum of actually the market signals from, you know, 
fuel costs right now, I would have to question that theory if 
you actually eliminated the standards whether you would have 
any type of a----
    Mr. Williams. The private sector will make that decision. 
Thank you. Appreciate it.
    Mr. Petri. Thank you.
    Ms. Frankel.
    Ms. Frankel. Thank you, Mr. Chairman.
    Thank you, panel. A question, to change the subject a 
little bit. I am from south Florida. We have a very high number 
of seniors and folks with disabilities. Our paratransit 
ridership for Palm Tran and Broward Transit is averaging over 
3,000 trips per day and far exceeds the national average for 
the transit system of our size. And our local agencies are 
concerned that that is not recognized. I guess is there a 
formula or is there some way that the Congress can address this 
situation so that they could get their fair share of money.
    Mr. Rogoff. Well, Ms. Frankel, there is a formula, and 
ridership of the system calculates into that formula. It may 
not be as immediately sensitive to that ridership year to year 
as some people may feel is appropriate--it may not reflect as 
quickly the changes in ridership. We just had implemented the 
new census, and it had some very dynamic changes in the 
allocation of funds.
    Ms. Frankel. But do you take into account the elderly, the 
disabled that will use a more expensive type of transit?
    Mr. Rogoff. The formula is somewhat sensitive to costs, and 
paratransit trips, if that is what you are referring to, ma'am, 
are calculated in that. Here again, I think it is fair to say 
it is in the formula, but is it dollar for dollar? I don't 
think you could make that argument because the formula, like 
most formulas that come forward from consensus legislation, is 
sort of a hybrid of multiple factors.
    Ms. Frankel. Well, let me just talk about, they tell me 
that it costs $26 an hour to operate a paratransit service, but 
they receive $3. Does that represent the type of formula around 
the country?
    Mr. Rogoff. Well, paratransit has been an increasingly 
costly challenge to transit agencies all across the country, 
and I am quite sure that an area that is rich with elderly 
citizens would be even more challenged. But it is a civil right 
that our disabled and senior citizens have. You know, the 
solution to that is a statutory formula change. And the 
solution to that would also be additional funding into the 
program consistent with some of the numbers that the President 
has requested in recent years.
    Ms. Frankel. So what type of formula change could we 
implement?
    Mr. Rogoff. Well, like I said, the formula is somewhat 
sensitive to costs in paratransit trips. I cannot say that it 
necessarily is dollar-for-dollar sensitive to the considerably 
higher costs that a paratransit trip costs versus a standard 
trip. And that would have to be statutorily put into the 
formula.
    Ms. Frankel. OK, thank you, sir.
    Thank you, Mr. Chair.
    Mr. Petri. Thank you.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    And, ladies and gentlemen, appreciate your testimony and 
being here today.
    My question, at least initially, Mr. Mendez, regarding the 
MAP-21 requirements for published rulemaking, I noticed in your 
testimony, you said that you complied with the declarations for 
emergency. But I am wondering about the NEPA requirements and 
the other, the right-of-way, and the $5 million and less 
standards, and when those are going to be published, if you 
know; if you know also what new categorical exclusions that you 
plan to propose.
    Mr. Mendez. We have a lot of activity underway, a lot of 
items underway. I think we have done really good work as a 
Department. As I mentioned, we have had extensive, extensive 
outreach to stakeholders in moving all of the rulemakings and 
reports and everything else forward.
    Specific to your question, on the right-of-way issue, and 
the projects with limited Federal assistance, we did issue a 
proposed rulemaking about 2 or 3 weeks ago, so that is out 
there. We are soliciting comment, as you are aware. We will 
take all comments and then we will issue a final rule sometime, 
I believe, early next year.
    Let's see. You asked about one other. What was the other 
one?
    Mr. Perry. Well, that was, it was right-of-way, and then on 
the projects below $5 million.
    Mr. Mendez. Yeah, so that is out. That was out a couple of 
weeks ago.
    Mr. Perry. It is already out?
    Mr. Mendez. Not the final, just for comments.
    Mr. Perry. For comments. We have got 30 or 60 days for 
comment?
    Mr. Mendez. I don't know that off the top.
    Mr. Perry. And so after that, you said early next year for 
the right-of-way. I mean, that is a long time.
    Mr. Mendez. I just heard 60-day comment period, by the way.
    Mr. Perry. OK, 60-day comment period. We are in March.
    Mr. Mendez. Right.
    Mr. Perry. So we are saying it is going to take until next 
year until folks. I mean, I thought the requirement was to have 
the rulemaking out by, I thought it was the end of February.
    Mr. Mendez. Yeah, we met that deadline for the notice of 
proposed rulemaking. We have met that deadline as of 2 weeks 
ago.
    Mr. Perry. Just the notice that you had to----
    Mr. Mendez. Yes.
    Mr. Perry. So the rulemaking itself is not required. What 
is the deadline for the rulemaking itself?
    Mr. Mendez. Can I get back to you on that?
    Mr. Perry. Sure.
    [The information follows:]

        Section 1317 of MAP-21 requires the Secretary to 
        establish a categorical exclusion for projects of 
        limited Federal assistance, and requires promulgation 
        of a regulation to carry out this provision by February 
        28, 2013. FHWA met this statutory deadline by issuing a 
        notice of proposed rulemaking (NPRM) by that date. FHWA 
        is currently soliciting comments through the NPRM. The 
        comment period for this rulemaking closes on April 29, 
        2013. We will work expeditiously to review and consider 
        all comments, and coordinate with all appropriate 
        Federal agencies before issuing a final rule.

    Mr. Mendez. Because I know we are on track for almost all 
of the rulemakings, I do know that. And you know, we have the 
schedule. I just off the top don't have it.
    Mr. Perry. OK, because I think that is important for folks, 
I am sure folks in the room that are interested in knowing 
where they stand.
    Let me ask you this: Do you know the Administration's 
position? I know MAP-21 calls for $5 million and below, but, 
you know, you don't get much for $5 million. Highway projects, 
road projects are exceptionally expensive for various reasons. 
Is there any interest in moving that number up for the NEPA 
requirements and the exclusions?
    Mr. Mendez. Well, I think what we need to do right now is 
to focus on what we currently have on hand, the $5 million, see 
how that works out. You know, we might hear that as part of the 
comments we need to take that into consideration. Right now, I 
am not aware that anyone has made those kinds of comments, but 
I would suggest we need to finalize this one before we start 
contemplating some other threshold.
    Mr. Perry. Sure seems like it takes a long time, a 60-day 
comment and then wait until next year. We need it right now, 
right? I come from Pennsylvania. We know the condition of roads 
and bridges, and to wait another year to kind of get these 
exclusions is a bit long, I would think.
    This is probably off the beaten path, certainly with MAP-
21, just interested in if the Administration has a position on 
the CARB standards. To me it is a disincentive for alternative 
fuel and people modifying their vehicles to alternative fuels. 
We do a lot of gas in Pennsylvania, Marcellus gas, and Utica 
shale gas, and it is a disincentive for people to use fuel-
efficient vehicles that are also 100 percent more clean for the 
environment regarding gasoline or diesel utilization. Does the 
Administration have a position on that?
    Mr. Rogoff. I am not sure you have got the right people 
here. You might want to talk to the Department of Energy on 
this.
    Mr. Perry. This is not carbon, CARB, the California Air 
Resources Board standards that States adopt.
    Mr. Rogoff. Oh. I have not heard us take a position as it 
relates to the merit of California's standard. We certainly 
haven't proposed to preempt it.
    Mr. Perry. OK.
    All right. Thank you. I yield back.
    Mr. Petri. Thank you.
    Ms. Hahn.
    Ms. Hahn. Thank you, Mr. Chairman, for holding this 
hearing.
    Thank you, panel, for staying around. You know, during the 
debate for MAP-21, I was following two pieces of the debate 
very closely, freight policy and the America Fast Forward. I 
represent the Port of Los Angeles, and it was great, Victor, to 
have you out there at the Port of Long Beach as we were 
dedicating the groundbreaking of the Gerald Desmond Bridge, 
which is a huge piece of our goods movement projects. This is 
the largest port complex in the country. I have also cofounded 
a Port Caucus with Congressmember Ted Poe from Texas so we can 
highlight the importance of our ports as it relates to goods 
movement in this country. And I know that unless we develop an 
effective national freight policy, we cannot move our goods 
efficiently and be globally competitive.
    One example I like to talk about is that goods that leave 
the Port of Los Angeles take 48 hours to arrive in Chicago and 
then another 30 hours to travel across the city. And I think 
that means higher costs for our consumers. It is more 
congestion, more pollution, less jobs. And so I think a 
national freight policy, particularly that includes good grade 
separation across this country, is critical to us being 
competitive in the future.
    The other thing I really support is America Fast Forward 
and that being in the TIFIA, a provision in the TIFIA. And, you 
know, in Los Angeles, while there is so much talk about not 
raising taxes, in Los Angeles, in the county, we voted to tax 
ourselves to pay for, specifically, for transportation 
projects. And our idea was to use these funds, this revenue 
stream to pay back Federal loans for transportation projects in 
10 years rather than 30. And now, with the provision in TIFIA, 
the entire Nation can have this kind of Federal assistance to 
move their transportation projects forward.
    So I know it is getting late. My two questions would be, 
you know, do you see more local governments, more cities, 
counties, States using this idea of providing the leverage 
either through tax increases or the private sector to leverage 
these kinds of loans for transportation projects? If not, how 
can we encourage, you know, local governments to really follow 
the example of Los Angeles?
    You know, we could have built these projects in 30 years 
and paid ourselves back with the revenue stream, but we thought 
it was better for the economy, better for the projects, better 
for putting people back to work if we could build these 
projects in 10 years and then repay the Federal Government with 
the revenue stream in 30 years. So we think that is a model 
that really will work as America Fast Forward, and what can you 
do to encourage, you know, other municipalities across the 
country to do something similar?
    And the other thing, if you could just touch on this, our 
national freight policy. And I know, Victor, you talked a 
little bit about. And I know I have nominated someone to be on 
this advisory council. How is this plan going to be developed, 
you know, in light of sequestration and other funding cuts? Are 
we going to have money to develop the plan, implement a freight 
policy in this country? How do you see that going? Because I 
really believe that is going to be key to us putting people 
back to work, being competitive, really working with not only 
our imports into this country, but I see a national freight 
policy as really being the backbone of exporting small 
businesses', you know, services and goods.
    So just those two things, if you could touch on the idea of 
America Fast Forward and the idea of are we really going to get 
a national freight policy and how are we going to implement it? 
Thanks.
    Mr. Mendez. Let me talk about the national freight policy 
and how is that going to work. There are a lot of components to 
that. It is going to be very complex. At the same time, we 
understand and recognize the importance of having the resources 
to actually execute a program.
    I will tell you that I think one of the things that we have 
done pretty well is utilizing technology, Webinars and 
teleconferences and such to do the outreach throughout the 
Nation. I have a little note here that says we did a National 
Online Dialogue on some of the freight issues. We had, I 
believe, over 8,000 people on that online dialogue, which is 
pretty amazing when you think about it. And throughout the 
Nation you are going to continue to see it.
    And we see it just within our own operations. Instead of 
going to a training session, we now do a lot on teleconferences 
just within our own operating budget. So I think the use of 
technology is going to help us get there, given that we have 
limited resources.
    Mr. Rogoff. I will speak briefly on the topic of America 
Fast Forward. We obviously recognize the leadership that Los 
Angeles has exhibited in this area, and the increase in funding 
in TIFIA under MAP-21 is certainly a great opportunity to, as 
you said, build a whole lot of projects that would have taken 
30 years perhaps as soon as 10.
    Just earlier this week--you asked what could we do to 
better effectuate these things--one of the things this 
initiative has done is really brought the TIFIA program and the 
modes together. So, for example, the Regional Connector and the 
Westside Subway in Los Angeles, which are two projects that 
want to come in for TIFIA funding, will also use FTA New Starts 
funds. And we were able to provide joint guidance between the 
Acting Chief Financial Officer of the Department Sylvia Garcia 
and myself to Art Leahy at the LACMTA telling him precisely 
what steps need to be followed for both their process and our 
process to get them to the finish line.
    Now, I have to put out a word of caution as I did earlier 
in the hearing. The sequester against the New Starts program 
really is starting to call into question our ability to admit 
new projects into the program because we can't fund the 
commitments we have already made. But with that caveat, we are 
working together with the TIFIA funding and the New Starts 
financial plan together to move things forward more rapidly.
    Ms. Hahn. Thank you.
    Mr. Petri. Thank you.
    Mr. Rice.
    Mr. Rice. Thank you. Is this thing on? Test, test. Thank 
you, Mr. Chairman.
    And thank you, members of the panel, for being here today. 
I know you have a tough job sitting here getting grilled, but, 
you know, I think that highway funding is incredibly critical 
infrastructure. Funding is incredibly critical. I believe that 
it is different than spending and that it is something we get a 
return on. I agree with the comments that Mr. DeFazio had 
earlier that we are being left behind in the world, we are 
becoming less and less competitive, and I worry about that. I 
think we have to invest in our infrastructure because American 
competitiveness, American business, middle-class jobs, and our 
entire economy are at stake.
    And I believe we are our own worst enemy. I think with 
overregulation and the cost and the delay that results that we 
prevent ourselves from being competitive. We are strangling 
ourselves. Bloated and inefficient Federal bureaucracy stifles 
progress. These processes dramatically increase cost and time 
for infrastructure delivery. And more and more middle-class 
families lose their jobs to our competitors overseas. A 
business that purposefully makes itself uncompetitive will not 
long survive.
    Mr. Mendez, you said it takes approximately 15 years, 
earlier, to deliver a major project. How do you define what a 
major project is?
    Mr. Mendez. Well, you can look throughout the country and 
probably talk to----
    Mr. Rice. Is there a dollar amount? Is there a length of 
miles? What is a major project?
    Mr. Mendez. No, I think the dialogue that we have had has 
been a general discussion throughout the Nation about major 
projects that pretty much every State needs to move forward, 
and on major infrastructure it takes a long time.
    Mr. Rice. The Highway Trust Funds that we are concerned 
about, and the trust fund being depleted, are those funds used 
for anything other than highways?
    Mr. Mendez. Well, the Highway Trust Fund itself does have a 
Highway Account and a Mass Transit Account and some other 
components, so not everything is geared toward investment 
directly in highways.
    Mr. Rice. What percentage is used, of the Highway Trust 
Fund, what percentage is used for highway construction?
    Mr. Mendez. I believe it is an 80-20 breakout in terms of 
Federal share.
    Mr. Rice. OK. And a lot of that money just goes back to the 
States, right?
    Mr. Mendez. Yes.
    Mr. Rice. What percentage of it goes back to the States?
    Mr. Mendez. I want to say close to 94 percent goes 
directly, maybe even higher than that.
    Mr. Rice. Well, how is the construction of Federal highways 
funded then? If it is not funded out of the Highway Trust Fund, 
how is it funded?
    Mr. Mendez. Well, let met clarify my statement. The 
majority goes back to the States. But, we also have a Federal 
lands program where we do invest in our national parks, and 
Federal lands. And so there is a portion that goes to that as 
well.
    Mr. Rice. What percentage? So you are saying we are buying 
land for national parks out of the Highway Trust Fund?
    Mr. Mendez. No, sir. We are improving access to Federal 
lands. The roads within national parks are also improved. And 
so those are the investments that we make within those 
programs.
    Mr. Rice. Are we building interstate highway projects right 
now?
    Mr. Mendez. I don't believe we have anything underway. I do 
know that there are some plans in various States for adding 
interstate miles.
    Mr. Rice. All right. So when you build an interstate 
highway in a given State, is that included in your numbers when 
you say that the funds are distributed to the State?
    Mr. Mendez. Yes, sir.
    Mr. Rice. OK. I read recently that South Carolina over the 
last 50 years has been a donor State, that 93 cents on the 
dollar that they have put in has come back, where most every 
other State, I think there were six donor States, most every 
other State has received pretty much dollar-for-dollar what 
they put in. Is that still true?
    Mr. Mendez. I don't believe so. As you are aware, I think 
in the last 5 years, from 2008 to the current year, the Highway 
Trust Fund has been bailed out by the General Fund to the tune 
of $54 billion. So I think if you looked at every State and 
looked at their return on their original investment, I don't 
believe there are any donor States.
    Mr. Rogoff. My understanding, Mr. Rice, there hasn't been a 
donor State since 2010.
    Mr. Rice. Two years ago.
    Mr. Rogoff. Well, we are in 2013 now and headed into 2014. 
But yes, sir.
    Mr. Rice. OK. All right. You say current receipts on the 
Highway Trust Fund cover about 60 percent of current funding 
levels. Do we have a percentage of Highway Trust Funds that are 
spent on these environmental regulations and other regulatory 
compliance? Can you break that out, how much of that money is 
spent on satisfying these bureaucratic requirements?
    Mr. Mendez. I don't have that with me. I think we have 
probably come up with some ballpark figures.
    Mr. Rice. I sure would like to know that. I mean, is the 
actual cost of building the road, you know, is that 80 percent 
of what is spent out of the Highway Trust Fund? Are we 
spending, 20 or 30 or 40 percent of our money on these 
regulatory requirements?
    Mr. Mendez. I will have to get that information for you.
    [The information follows:]

        The FHWA does not have any internal reports or data 
        regarding the amount of expenditures from the Highway 
        Trust Fund for regulatory requirements. However, the 
        following reports may be helpful to provide general 
        information regarding regulatory costs associated with 
        highway projects:

        <bullet> LU.S. Gov't Accountability Office, GAO-09-36, 
        Federal-Aid Highways: Federal Requirements for Highways 
        May Influence Funding Decisions and Create Challenges, 
        but Benefits and Costs Are Not Tracked (2009), 
        available at http://www.gao.gov/assets/290/284235.pdf. 
        This report identifies the types of costs and benefits 
        associated with four Federal-aid highway regulatory 
        requirements: NEPA, the Davis-Bacon prevailing wage 
        requirement, the DBE program, and the Buy America 
        program.

        <bullet> LU.S. Gov't Accountability Office, GAO-13-
        193R, Highway Trust Fund Obligations: Fiscal Years 
        2009-2011 (2013), available at http://www.gao.gov/
        assets/660/651315.pdf. This report details activities 
        funded from the Highway Trust Fund, including for 
        purposes other than construction or maintenance of 
        highways and bridges. The report identifies the non-
        highway Trust Fund money that goes to the Federal 
        Transit Administration, the National Highway Traffic 
        and Safety Administration, and the Federal Motor 
        Carrier Safety Administration. Within the Federal 
        Highway Administration, the report separates funding 
        into three categories: highway and bridge construction 
        and maintenance; transportation enhancements; and other 
        purposes (such as safety, debt service and planning 
        activities).

    Mr. Mendez. But just from my experience, I don't know if 
you were here when I mentioned, I used to be a State DOT 
director.
    Mr. Rice. Right.
    Mr. Mendez. I believe the actual investment in actual 
infrastructure is somewhere in the 90-percent range, but we 
will get that information for you.
    Mr. Rice. OK, thank you. Are there any studies that have 
been done on the economic cost in jobs and tax receipts of 
delaying projects for 5 and 10 years to comply with all these 
regulatory requirements?
    Mr. Mendez. I don't believe we have any within FHWA. I have 
got to believe somewhere in the industry people have done these 
kinds of analysis.
    Mr. Rice. OK, can you help me find those?
    Mr. Mendez. We will help you out.
    [The information follows:]

        The FHWA does not have any internal studies or data on 
        the economic cost in jobs and tax receipts of highway 
        construction delays due to regulatory requirements. In 
        addition, we were not able to locate any such reports 
        amongst other stakeholders at the State and local level 
        or within private industry.

    Mr. Rice. I appreciate it. Now, it says that MAP-21 has a 
goal of 4 years for an environmental review. How long will it 
take to put that in process? I know I heard Mr. Perry asking 
you earlier about what your progress was. I mean, is it going 
to be years before we can get that in place, months?
    Mr. Mendez. Off the top, I don't have the regulatory 
deadline, but like I said, there are so many rulemakings we 
have to undertake under MAP-21. We are on target for almost all 
of them, so I can get that information to you specifically on 
that one. I just don't have it here in front of me.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 79896.007
    
    Mr. Rice. We need rules to enforce the rules that put in 
place more rules.
    Mr. Petri. Yeah.
    Mr. Rice. And I think we are getting back to the source of 
how we are strangling ourselves and stifling our economy, and 
forcing American jobs overseas.
    I thank you, Mr. Petri. I know I am over my time.
    Mr. Petri. Thank you.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this hearing. This question is for Administrator Mendez.
    Section 32801 of MAP-21 authorizes DOT to conduct a 
comprehensive truck size and weight limit to commence no later 
than 45 days after MAP-21's enactment and to be completed no 
later than 2 years after that, the date the study is commenced. 
Can you tell me if the study will be completed by August of 
2014, 2 years after the start date, as required by MAP-21.
    Mr. Mendez. Our target for completion of that study is the 
statutory deadline November of 2014. Now, we are working very 
hard to get that done as soon as possible. As I mentioned 
earlier, that is a very complex issue, as you are aware, and I 
know you have a very direct interest in that. We are in the 
process of hiring a consultant to help with us the study 
itself; there are a lot of elements that need to be balanced 
between safety and economic issues and infrastructure issues, 
as you are aware.
    I know we have shared some information, specifically with 
your office, that indicated we had started the study in August 
of last year. I think that was an error, and I do apologize. 
What happened last year in August is that the Secretary created 
the Freight Policy Council, and I think that may have been 
misinterpreted as we have started this specific study. That was 
just part of the process to get ourselves geared up to 
implement as a Department, multimodally, the overall freight 
issues within MAP-21.
    Mr. Michaud. Yeah. Well, actually my office was also told 
last year that Federal Highway was expected to have a 
consultant in place and the technical work underway at the end 
of, you know, 2012. And what you are telling me today is you 
haven't even picked a consultant yet. So that is really 
concerning.
    And I believe that part of the problem in the delay and the 
reason why the delay in the study was due to Federal Highway 
revising its solicitation for consultant services in order to 
increase the number of vehicle configurations to be studied, 
including various longer combination vehicles. These vehicles 
were not statutorily required under MAP-21. What was required 
under MAP-21 was for Federal Highway to specifically study six-
axle trucks.
    I, along with my colleagues on this committee, have 
introduced legislation that would give States the option of 
permitting six-axle, 97,000-pound trucks on their interstates, 
the option to do that. The intent of including this specific 
configuration in the study was to help inform Congress and the 
States of our proposal and the impact of the benefits of six-
axle trucks.
    Giving that it appears that Federal Highway is nearly, 
well, 3-plus months behind in schedule, including one delay to 
add additional vehicle configuration that was not, I repeat 
not, included in any legislation before Congress, I would 
encourage Federal Highway to provide the study that was 
required and asked for by Congress, the 97,000 pounds, six axle 
before the deadline, so we might be able to deal with that 
issue as we deal with the next highway reauthorization.
    So since the department went above and beyond what the law 
required, are you going to be able to provide this committee 
with what we asked for, the 97,000 pounds, six axle, so we 
might be able to include something in the highway 
reauthorization. Any comment on that, what was specifically 
required of Federal Highway? Can you provide us with that 
specific study?
    Mr. Mendez. Well, we are moving the study forward and we 
are going to move it as fast as we can, and, we are going to do 
the best that we can. We will provide to you a data-driven 
objective study.
    Mr. Michaud. But the problem is, you went above and beyond 
what the law required, and that is what, I believe, is causing 
part of the delay in what we had asked for on the 97,000-pound, 
six axle. And I would encourage you to get us what we asked for 
in the timeframe that we asked for it. And if you want to study 
any other configurations, go ahead and do it. But I would 
expect what we asked for to be done in the timely fashion that 
we asked for it because of the reauthorization.
    Mr. Mendez. OK.
    Mr. Michaud. And so I would encourage you to consider that 
as well.
    Mr. Mendez. OK.
    Mr. Michaud. I see my time has run out, Mr. Chairman, so I 
yield back the balance of my time.
    Mr. Petri. Thank you.
    Mr. Mullin.
    Mr. Mullin. Thank you, panel, for being here. It is an 
honor for all of us to be able to serve this great country, and 
I think we need to always keep that in mind, that we need to 
put country first.
    And, Ms. Ferro, I have got a question for you. By FMCSA's 
estimate, the trucking industry will spend more than $300 
million by July 1st, implement new rules for modifications and 
preparations for hours of service. And in October of 2012 they 
asked for an extension on this pending the court case. And your 
office wrote back, said denying this request, saying they 
didn't demonstrate the likelihood that the industry will suffer 
harm due to wasted training resources or confusion.
    Well, what is $300 million? I am a small business owner, 
and the only reason why I sit in front of you today is because 
I got frustrated with things just like this happening to me 
when I realized our biggest competition is the Government that 
is supposed to make things easier for us and safer for us. But 
when we would get a response that says we didn't demonstrate 
how much harm it was going to cause to us, yet by your own 
study $300 million it is going to cost to implement it, and yet 
it is not even out of the court case, how is this a good idea 
and how was that decision made?
    Ms. Ferro. Mr. Mullin, at the core of your question was the 
word safety, and that really is at the heart of the decision 
that I made with regard to that request. The Hours of Service 
Rule was issued as a final rule over 15, almost 15 months ago, 
and it made changes to the hours of service that drivers can 
operate large vehicles in the context of reducing cumulative 
hour accumulation. We kept the 14-hour workday, kept the 11-
hour drive time. But the concept of, under the rule that is in 
place today, not the one that takes effect in July, going from 
a maximum average workweek of 82 hours to 70 hours is at the 
core of impacting, reducing the risk of cumulative fatigue for 
a driver. So back to----
    Mr. Mullin. Well----
    Ms. Ferro. Go ahead.
    Mr. Mullin. And I understand what you are saying, but since 
1975 the industry has been doing a pretty good job, because 77 
percent, we have less fatalities. It has dropped by 77 percent. 
So the industry has been doing pretty good so far taking care 
of themselves. And now all of a sudden we have got to have 
someone else tell us how to take care of things. And yet, by 
you own study also in 2009, you stated that 81 percent of the 
time an accident happens with a truck it is the car's fault.
    So once again, why do we keep putting more and more strain 
on the backbone of our economy, on our truckers and small 
businesses? Why are we putting more and more on their backs 
when they have been doing a pretty good job so far taking care 
of themselves?
    Ms. Ferro. Well, let me reinforce again, at the core of the 
mission and the mandate for the Federal Motor Carrier Safety 
Administration is safety, saving lives by reducing the risk of 
crashes involving trucks and buses. The Hours of Service Rule 
and the hours within which drivers can operate is a core 
component of that, and it is true over a period of several 
years the agency developed and put in place a final rule 
modifying those hours of service to reduce the risk of 
cumulative fatigue.
    That rule takes effect in July of this year. It has 
tangible lifesaving benefits, and in fact is a cost-beneficial 
rule. The number of $300 million was our own estimate in the 
regulatory evaluation of the rule in what it would cost 
industry and others to train up for the rule. It is an average 
of 2 hours of training per driver. We understand and recognize 
through our own analysis the impact that our rules have on 
small businesses. As I mentioned earlier, the industry is small 
business America. So that is a very important sensitivity. But 
at the core of this rule is safety on our highways and all the 
people that travel either in a truck, in a bus, or around those 
vehicles.
    Mr. Mullin. Ma'am, I actually have over 80 vehicles on the 
road, too, and I can promise you, as a small business owner, 
that is on our mind every day.
    Ms. Ferro. I am sure it is.
    Mr. Mullin. Constantly.
    Mr. Ferro. Yeah.
    Mr. Mullin. And it is at the core of our business.
    Ms. Ferro. Yeah.
    Mr. Mullin. But typically when the Federal Government 
estimates the cost of implementation, they grossly 
underestimate it. And it takes away from other things, like us 
doing our job. And my only thing is, is I can't come up with a 
good enough reason to tell individuals when they come up and 
tell me, why can't we get an extension when the courts are 
still hearing this? I say, well, I really don't understand that 
either. It is still at the safety. I get that. But we are still 
talking about real dollars that is coming straight out of the 
pockets of, not your pocket, but my pocket.
    It seems very simple. Why can't we just simply give an 
extension? I mean, get a letter that states that they didn't 
demonstrate that it is going to do harm? That is a slap in the 
face. What is $300 million, if that is not harm?
    Ms. Ferro. Tired drivers resulting in crashes on our 
highways is harm to the traveling public. Again, the Hours of 
Service Rule takes effect, goes into effect in July of this 
year. The request to delay was related specifically to the 
court hearing the case. Tomorrow are oral arguments on that 
case. I have high confidence in this rule. We have also been 
spending a tremendous amount of money, not tremendous, but 
mobilizing for training, for implementation of this rule, and 
it is very----
    Mr. Mullin. The difference between your dollars and our 
dollars is your dollars are given to you by our tax dollars. 
Our dollars we have to go out and earn. And I am just asking, 
please take this into reconsideration because it is going to 
hurt us. We all have safety in mind, but we should be working 
together, not against each other.
    Ms. Ferro. And I would agree. We are. And the parties have 
clearly an opportunity to make that same request to the court.
    Mr. Mullin. Thank you.
    Ms. Ferro. Thank you.
    Mr. Petri. Ms. Esty.
    Ms. Esty. Thank you very much, Mr. Chairman. A couple of 
quick questions coming from the State of Connecticut, which has 
seen enormous infrastructure damage over the last couple of 
years due to extraordinary storms and circumstances. So the 
first question is a fairly specific one. It has to do with the 
rural roads penalties on the 2-year. Frankly, we have had 
extraordinarily low record of accidents on our rural roads, but 
in the last 2 years, we have had--I had 3 feet of snow 3 weeks 
ago in my community. You can imagine when you have those kinds 
of extraordinary storms, as we did with Sandy, power lines down 
on the roads, which have nothing to do with maintenance of our 
roads, but has a lot of do with extraordinary storm events. We 
would like you to consider the 2-year window and consider 
whether you can take into account weather conditions or 
something that would recognize that it should perhaps be a 
longer window or should recognize when we had storm Irene, 
storm Sandy, massive power outages, that that did rather 
artificially spike our numbers, which again are not related to 
the conditions of our roads or maintenance of them, but frankly 
measures--truly acts of God outside of it.
    We have some issues around tolling and would like you to 
consider whether there doesn't need to be more flexibility. I 
understand that MAP-21 provides some greater measure of 
flexibility, but we have one of the most heavily used 
interstate corridors in the United States, and 95, we are 
looking at tolling right now in Connecticut, but the 
restrictions with only three States being allowed to look at 
this, the entire eastern seaboard has inadequate funds right 
now to upgrade and repair our vital, vital highways, and we 
would ask you to consider greater flexibility for recognition 
of the reality that is in the Nation's interest to move people 
and goods across this country, so greater flexibility on that.
    Also the Governor is very concerned that we look at 
allowing States to be considered entities that can apply for 
T&A. They would like--Connecticut is a small State. We have a 
lot of intermodal proposals that are too big for municipalities 
that States end up coordinating. Connecticut also doesn't have 
any county government, so you basically go from municipal 
straight up to the State level, and so, again, recognizing some 
of our smaller States that are densely populated that you would 
consider, and I would be happy to work with your staff, I will 
send more detailed questions, but really to flag these issues 
for your consideration in our joint efforts to improve the 
infrastructure in the United States and recognize, though, some 
of our States which are heavily populated have had some 
extraordinary demands in recent years, and we are struggling 
with tough budgets to creatively use the funds that come from 
the Federal Government in ways that allow us to do right by the 
citizens of our States.
    So if you could have any comments now, that is great, but 
really mostly to flag those concerns and ask for your 
assistance in working with us on providing flexibility we need 
to do what we are all here to do, which is to improve the 
infrastructure in the United States and improve the lives of 
our citizens.
    Mr. Mendez. Let me comment. I do appreciate the issues that 
you raise. I think the best thing to do is have my office meet 
with your office so we can run through your issues and see what 
we can do. OK?
    Ms. Esty. Thank you very much.
    Mr. Mendez. Sure.
    Mr. Petri. Thank you.
    Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman. Mr. Mendez, back on 
the truck size and weight study. Pennsylvania, my home State, 
has 5,000 structurally deficient bridges. Our neighbor State of 
Ohio has 4,000 structurally deficient bridges. Adding 17,000 
pounds to our trucks aren't going to make our bridges any safer 
in Pennsylvania or in Ohio or in the hills of Tennessee or on a 
winter road in Minnesota.
    The interstate system was designed to move goods across the 
country efficiently. Having a patchwork, jigsaw interstate 
system where one State allows heavier trucks, one State does 
not would be typical of Washington's involvement to take 
something that works and mess it up.
    But I worked on a weigh scale, and I could tell you it 
doesn't matter if you add 10 axles to that truck. If it is not 
loaded properly, it is not going to matter how many axles are 
on the truck.
    But my question is, do you agree that Congress should await 
the results of the study before proceeding to consider any 
further legislation dealing with heavier trucks?
    Mr. Mendez. Well, let me just reiterate that our intent, as 
you directed us to do, is to bring to you a study that is going 
to hopefully address all the issues and then give you the 
information so you as a body can debate what needs to be done 
on a national basis.
    I don't know that I necessarily need to comment on what 
Congress should or shouldn't do. I think my role is to provide 
you with the best information, the best study that we can 
provide to you, as I said earlier, it needs to be objective and 
data-driven, and then you can figure out through your body, and 
through your deliberation, what is the best thing to do for the 
Nation.
    Mr. Barletta. Thank you. I was in the pavement marking 
business before I came to Congress, before I was mayor and came 
to Congress, so I understand the importance of retroreflective 
pavement markings. When people can see the lines on the roads 
and the signs along the roads, it saves lives. And I was very 
proud of that work. And I was also pleased to see that the 
language that I proposed that would allow for easier access to 
the Highway Safety Improvement Program for pavement markings 
and sign retroreflectivity made it into the final bill. 
However, I find it a bit disturbing that FHWA is still 
proposing that each project should include data on the need for 
these safety improvements, when the FHWA has conducted or 
sponsored research on the systematic benefits of sign and 
pavement marking retroreflectivity projects already. This seems 
to be a waste of taxpayer's dollars to require data collection 
on the need for sign and pavement marking retroreflectivity 
projects, when the cost-effectiveness of these projects has 
already been proven.
    If the State sees a need to utilize these funds for 
retroreflectivity projects, will you really require further 
collection of more data and waste more time, when these 
projects could be completed quickly and more efficiently?
    Mr. Mendez. You raise a very good point. Let me take that 
back to my office, let me get my people together and go through 
this issue one more time, and we will get back to you.
    Mr. Barletta. OK. Thank you.
    Mr. Mendez. I think you framed it in a different 
perspective, and I do appreciate that.
    [The information follows:]

        We do not believe an insert is required for this 
        exchange.

    Mr. Barletta. Well, it is all about saving lives----
    Mr. Mendez. I agree.
    Mr. Barletta [continuing]. And here is a way we can do it. 
Thank you.
    Mr. Mendez. Thank you.
    Mr. Petri. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman, and I appreciate 
hearing this. My question is for Administrator Ferro. Last year 
the subcommittee had the opportunity to hear from you about 
truck and bus safety programs, and I submitted a question to 
you about whether or not you would be willing to come up with 
an alternative for, and what I am talking about as hazardous 
materials safety permit process, and coming up with an 
alternative other than having to age out of, you know, whatever 
the violation is that may not be--you know, that isn't related 
to a crash or something.
    And the alternative approach that I have been looking at or 
that we have been pushing is for a--you know, either allow that 
individual to, or company to, you know, put out a full review 
of their safety management controls, or if the opportunity 
arose or come up with some sort of an opportunity to provide a 
corrective action plan prior to denying that permit.
    And I very much appreciate your response, which you did 
give me a response, and you did note that under the current 
process there is no opportunity allowed to file corrective 
action plans or demonstrate their fitness, but you also--and 
you also pointed out, too, that under Section 33.014 that it 
precluded you from making any changes until you had made an 
assessment of the program.
    But what my question to you is, and I don't see anything 
that prevents you from requiring that you have to wait until 
that assessment is done or taking some early action, and I am 
just simply asking you if you can come up with something, some 
opportunity to either, you know, bridge that gap between now 
and when that is all finished and when you have completed your 
study to be able to have some sort of a waiver process or some 
sort of an opportunity to be able to--you know, to demonstrate 
this process without having to be denied and then, you know, 
coming back through, through that process, because it is a--you 
know, this is something that is a pretty big deal to me.
    Ms. Ferro. Congressman, I appreciate that. And following 
our meeting with you, we did in fact make a pretty significant 
modification to how it is calculated by averaging the violation 
rate over an 8-year period instead of that rolling 2-year 
average, and I think that helped a great deal to balance, 
offset some of the, maybe the unfairness of the program to set 
a better balance.
    We have since met with stakeholders on this permit, and we 
continue to drive towards--let me just simply say, I continue 
to be open to opportunities to address the areas of concern 
that stakeholders have raised.
    The challenge for an appeal does exist today when it comes 
to specific elements within their violation history. If there 
is a specific violation and a permit holder feels was not 
accurately applied, they go through the DataQ process. If there 
is a history of crashes that the permit holder feels were 
preventable, we consider that before we make a final decision. 
This is one of the areas where we do consider preventability 
when it comes to crashes.
    That final step of allowing a permit holder that we have 
denied a permit to submit a corrective action plan is the piece 
that I really want us to finish the analysis that is--we are 
required to do under MAP-21. I expect to complete that analysis 
this summer, and so I would like to revisit with you what we 
identify in that regard after we finish that study and see if 
there are some interim steps we can take before we move to, if 
we move to a full rulemaking in that regard.
    Mr. Graves. Well, I am pleased to hear that you guys might 
be done with that before summer, you know. And if that isn't 
the case, I wish we could find some alternative at least to 
bridge that gap between now and then, because this is really 
a--I mean, this is a frustrating process, and we just want the 
opportunity to be able to, you know, again, appeal that or at 
least prove up that opportunity. And so, you know, the summer 
is not far away.
    Ms. Ferro. It is not.
    Mr. Graves. It is not very far away at all, and--but I 
would--you know, if we could come up with some sort of a way to 
bridge that--to bridge that gap, that would be a big help. But 
I look forward to talking to you about it and I do appreciate 
your openness on this.
    Ms. Ferro. Thank you.
    Mr. Petri. Thank you.
    Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman. 
Administrator Mendez, I know Mr. Rice was asking you about 
interstates currently under works. Interstate 69 in Texas is 
currently in the works. We are converting some existing 
highways up to interstate standards. So we are, in fact, 
growing the system, but it is an awfully slow process and 
awfully expensive process.
    I wanted to ask about a couple of issues. We have spoken a 
lot about the need for funding our infrastructure, and one of 
the alternatives that is sometimes floated around is a vehicle 
miles driven tax. And, frankly, my concern is with this, and I 
express it when people talk to me, is can this be done in a way 
that preserves people's privacy. I mean, are we talking--the 
proposals have included, you know, GPS and things like that. Is 
the technology in place to do this on a--anonymously and on 
some sort of pay-as-you-go system where you don't end up 
getting, you know, a thousand dollar bill when you renew your 
license tags?
    Mr. Mendez. There have been a few studies underway, 
specifically in the State of Oregon, looking at the concept. In 
fact, I believe they are beginning another pilot on that to try 
and address the privacy issue. I believe, just thinking back to 
some of the preliminary findings there, they believe that there 
is a way to address the privacy issue.
    Mr. Farenthold. All right. I was just curious as to whether 
you thought it could be done and the technology was there.
    I want to get into the weeds a little bit with MAP-21. That 
is, you know, more specifically what we are looking at in this 
hearing. And Section 1309 addresses accelerated completion of 
environmental impact studies. It requires completion less than 
4 years after the issuance of a notice of intent, but it is not 
clear how this applies to projects where a notice of intent was 
already issued before MAP-21, and, in fact, in some cases more 
than 4 years before MAP-21.
    Do you intend to clarify this in regulation or are we going 
to see an issue where in order to meet the 4-year standard 
stuff that was previously started is going to be pushed to the 
back?
    Mr. Mendez. No. We actually are working on a lot of these 
issues simultaneously. There are a lot of provisions, including 
that one that you are talking about, and we are working on that 
with other Federal agencies just trying to figure out what the 
issues are, and eventually we will come out with some guidance. 
We are not there yet, but it is not being pushed to the back, 
by the way. It is a very important provision.
    Mr. Farenthold. All right. And in that rulemaking, I would 
also encourage you to consider having the 4-year timeframe 
applies to design-build projects as well, as they are not 
following the traditional, you know, procedures.
    Mr. Mendez. Right.
    Mr. Farenthold. And let us go to Section 1317 now. It 
creates a categorical exclusion for projects with limited 
Federal assistance. And we all recognize that funding estimates 
frequently change, and unfortunately frequently change for the 
worse, but before and after a NEPA decision, is it possible 
that a project could have a change order during construction 
that would put the Federal participation beyond the threshold 
established in the statute, and can we look at maybe a 
regulation to address that as well?
    Mr. Mendez. We, as I mentioned earlier, for that specific 
item, we actually issued a notice of proposed rulemaking about 
2, 3 weeks ago.
    Mr. Farenthold. OK. I hadn't seen that. I apologize.
    Mr. Mendez. Yes. So that is out there. We will bring in all 
the comments. As I was reminded, we have a 60-day comment 
period, and we will get that out, it seems to me, some time 
this year. I think earlier I had said next year. It is probably 
going to be this year.
    Mr. Farenthold. All right. And also Section 1318 requires 
DOT to do a survey on the use of categorical exclusions among 
States and solicit ideas for new categorical exclusions. Have 
you all thought about what type of other categorical exclusions 
you all are thinking about?
    Mr. Mendez. Yes. The survey actually was conducted and was 
finished, I believe, late last year in 2012.
    Mr. Farenthold. And so are we going to get public comment 
and rulemaking as a result of that?
    Mr. Mendez. That is correct. We are wrapping those results 
into rulemaking, along with some other provisions that required 
us to look at other CEs.
    Mr. Farenthold. OK.
    Mr. Mendez. So all that----
    Mr. Farenthold. All right.
    Mr. Mendez [continuing]. Is being wrapped up together.
    Mr. Farenthold. Great. And I am running out of time. I did 
have a quick question for Mr. Strickland. Having seen your 
testimony that we are having a lot of success with our seatbelt 
programs that have come through, are we reaching a time now, 
especially in time of furloughing Federal employees, that we 
might be thinking it is time to watch where we are spending our 
money and not spend it on things that I think have become 
common sense for most Americans?
    Mr. Strickland. Well, Mr. Farenthold, I appreciate the 
compliment about our success of our programs, but frankly, we 
have to redouble our efforts on belts, recognizing the fact 
that of our highway traffic safety fatalities half of them are 
still unbelted. So that delta of 50 percent of the people not 
wearing their belts constitutes about 16,000, 17,000 people.
    So as opposed to thinking about maybe it is not the time to 
continue to focus on belts, it is a time to probably get that 
number up even higher so that we do not end up losing half of 
our people to traffic crashes because of not wearing their 
belts.
    Mr. Farenthold. All right. Well, I see my time has expired. 
I would like to explore that more with you, but we are running 
late in the day. Thank you very much. I yield back.
    Mr. Petri. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. And thank you all for 
being here today. I apologize. As is typical of the committee 
process, we are in and out, so I may ask you a question that 
may be somewhat redundant, but it is localized and it matters 
to my district. And I would like to start first with Mr. Mendez 
and then Mr. Rogoff. It is about the streamlining process. I 
know that has been discussed. I have some specific projects in 
Springfield, Illinois, that will benefit from this streamlining 
process. They are about ready to undergo the environmental 
review process that could be costly and add to the length of 
time this project moves forward. I know those rules have not 
been finalized yet, and if you have already responded to this, 
I apologize, but, you know, this has a potential to fast track 
our projects and it will improve transit throughout my 
district. Do you know, can you tell me where you are at in 
terms of this process and speeding it up?
    Mr. Rogoff. Well, as Administrator Mendez just mentioned--
he spoke about the categorical exclusion rule--there have been 
two rulemakings as it relates to categorical exclusions, one 
specific to natural disasters that we were able to get out 
quickly. We also have this NPRM on categorical exclusions, 
which from the transit perspective perhaps holds the greatest 
promise to shorten the environmental review period, because it 
would enable some considerable amount of transit investments to 
go through the CE process rather than an EA or an EIS process.
    And that was actually a joint rule that we did together and 
which is a model that we are hoping to emulate going forward. 
That is now out for public comment with a goal of getting the 
comments back soon. We are going to get some comments back, and 
we are going to address them, but I don't expect so much 
controversy that the publication of the final rule should be 
delayed. So we are optimistic.
    Mr. Davis. Great. Thank you very much. One last question 
for both of you again, and this has to do with some mass 
transit systems that I have talked to in my district, 
specifically in Bloomington, Illinois, and Champaign, Illinois. 
They are happy with the timeliness of some of the bus grants 
and how they are being awarded, so thank you for that, but they 
are a little concerned that once some of the new safety 
requirements that are tied to MAP-21 are implemented, that 
their ability to have access to the grants that make them able 
to serve many of our rural areas could be impacted by that.
    Are you working on ways to address these new requirements 
so that the process still remains as good as it is now?
    Mr. Rogoff. Yes, we are. I believe there is a fair degree 
of unnecessary worry and anxiety on the part of--especially 
some of our smaller grantees--about our new transit safety 
initiatives, and I have sought to address them.
    We have made clear that when we talk about launching a 
safety management system approach, it is going to be scalable. 
It is going to recognize that, first of all, transit by and 
large is a very safe mode of travel. And our goal, as I said in 
my opening testimony, sir, is to try to provide some value-
added guidance and standards without adding a great deal of 
cost or bureaucracy.
    We have a great opportunity here in that we are starting 
with a blank slate, since we were prohibited in law from 
issuing safety standards since 1964. MAP-21 changes that, but 
it gives us also an opportunity--rather than having to tweak 
the old--to really conceive from the ground up what is the 
right approach for the right type of operator, and we are going 
to do that. And I think once we do a better job of reaching out 
and apprising people of our plan to add value without adding a 
great deal of cost, we will get greater buy-in and less 
anxiety.
    Mr. Davis. Well, thank you. Thank you all for coming today. 
And I would like to yield back the balance of my time.
    Mr. Petri. Thank you.
    I ask unanimous consent that the record for today's hearing 
remain open until such time as our witnesses have provided 
answers to any question that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    Gentlemen and the lady, thank very much for being with us 
this morning. And this hearing is adjourned.
    Ms. Ferro. Thank you.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]

</pre></body></html>
